The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be          Office of the Inspector General
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
                                                                                            Semiannual Report
                                                                                            to Congress
• Contract and Procurement Irregularities    • Abuse of Authority
• Conflict of Interest                       • Misuse of Government Credit Card
• Theft and Misuse of Property               • Time and Attendance Abuse
• Travel Fraud                               • Misuse of Information Technology Resources
• Misconduct                                 • Program Mismanagement


Ways to Contact the OIG
                               Call:
                               OIG Hotline
                               1-800-233-3497
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message.


                               Submit:
                               Online Form
                               www.nrc.gov
                               Click on Inspector General
                               Click on OIG Hotline



                               Write:
                               U.S. Nuclear Regulatory Commission
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike                                         April 1, 2012–September 30, 2012
                               Rockville, MD 20852-2738


NUREG-1415, Vol. 25, No. 2
October 2012
OIG VISION                                                                OIG STRATEGIC GOALS
“OIG will identify the most critical risks and vulnerabilities in         1. S
                                                                              trengthen NRC’s efforts to protect public health and safety
agency programs and operations in a timely manner to allow the               and the environment.
agency to take any necessary corrective action and to prevent
                                                                          2. E nhance NRC’s efforts to increase security in response to an
and detect fraud, waste, and abuse.”
                                                                             evolving threat environment.
                                                                          3. I ncrease the economy, efficiency, and effectiveness with
OIG MISSION                                                                  which NRC manages and exercises stewardship over its
                                                                             resources.
NRC OIG’s mission is to (1) independently and objectively conduct
and supervise audits and investigations relating to NRC’s programs
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Cover Photos:
Background: Leskel Gamma Knife® headframe uses radiation to treat
people with brain tumors.
1. Patient preparing for Gamma Knife® treatment.
2. NRC inspection and radiation monitoring.
3. Researcher handling radioactive material.
4. A moisture gauge uses radiation to indicate whether a foundation is
    suitable for construction.
A Message From
the Inspector General
I am pleased to present this Semiannual Report to Congress on the activities and
accomplishments of the Nuclear Regulatory Commission (NRC) Office of the
Inspector General (OIG) from April 1, 2012, to September 30, 2012.

Our work reflects the legislative mandate of the Inspector General Act, which is
to identify and prevent fraud, waste, and abuse through the conduct of audits and investigations relating
to NRC programs and operations. The audits and investigations highlighted in this report demonstrate
our commitment to ensuring integrity and efficiency in NRC’s programs and operations.

During this reporting period, the NRC OIG continued its focus on identifying the most critical risks
and vulnerabilities in NRC programs and operations to include the management of import/export
authorizations; issuance of general licenses for the use of byproduct material contained in certain
products; oversight of industrial radiography; the inspections, tests, analyses, and acceptance criteria
process; and the contract administration of the Enterprise Project Management contract. Working with
the NRC timely to identify program areas warranting improvement affords the agency the opportunity
to take any necessary corrective action.

During this semiannual reporting period, we issued 11 program audit reports. As a result of this work, OIG
made a number of recommendations to improve the effective and efficient operation of NRC’s safety, security,
and corporate management programs. OIG also opened 49 investigations, and completed 32 cases. Nine of
the open cases were referred to the Department of Justice, 24 allegations were referred to NRC management
for action, and 2 were referred to other agencies.

The NRC OIG remains committed to the integrity, efficiency, and effectiveness of NRC programs and
operations, and our audits, investigations, and other activities highlighted in this report demonstrate
this ongoing commitment. My staff continuously strives to maintain the highest possible standards of
professionalism and quality in its audits and investigations. I would like to acknowledge our auditors,
investigators, and support staff for their superior work and ongoing commitment to the mission of this office.

Finally, the success of the NRC OIG would not be possible without the collaborative efforts between my
staff and those of the agency to address OIG findings and to timely implement recommended corrective
actions. I thank them for their dedication and support, and I look forward to their continued cooperation
as we work together to ensure the integrity and efficiency of agency operations.




Hubert T. Bell
Inspector General




                                                                          April 1, 2012–September 30, 2012       i
                                                                         Gamma knife® collimator helmet


ii   NRC Office of the Inspector General Semiannual Report to Congress
Contents
Highlights      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v
  Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v
  Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .viii


Overview of NRC and OIG                                                               1
  NRC’s Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    .1
  OIG History, Mission, and Goals . . . . . . . . . . . . . . . . . . . . . . .      .2
      OIG History . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    .2
      OIG Mission and Goals . . . . . . . . . . . . . . . . . . . . . . . . . .      .3


OIG Programs and Activities                                                           4
  Audit Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    .4
  Investigative Program. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .5
  OIG General Counsel Regulatory Review . . . . . . . . . . . . . . . . . . .        .6
      Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    .6
      Other OIG General Counsel Activities . . . . . . . . . . . . . . . . . .       .7
  Other OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .8


Management and Performance Challenges                                                 9


Audits                                                                               10
  Audit Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
  Audits in Progress. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


Investigations                                                                       35
  Investigative Case Summaries . . . . . . . . . . . . . . . . . . . . . . . . . 35


Summary of OIG Accomplishments                                                       44
  Investigative Statistics. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
  Audit Listings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
  Audit Resolution Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . 48


Abbreviations and Acronyms                                                           51


Reporting Requirements                                                               52


Appendix                                                                             53




                                                                       April 1, 2012–September 30, 2012   iii
                                                                         Nuclear fuel rod assembly

iv   NRC Office of the Inspector General Semiannual Report to Congress
Highlights
The following two sections highlight selected audits and investigations completed during this
reporting period. More detailed summaries appear in subsequent sections of this report.


Audits
•	 Safeguards Information, or SGI, is a category of sensitive unclassified
   information that is unique to the U.S. Nuclear Regulatory Commission (NRC).
   SGI is detailed security-related information that identifies security measures
   for the physical protection of special nuclear material, or security measures
   for the physical protection and location of certain plant equipment vital to the
   safety of production or utilization facilities. Unauthorized disclosure of SGI
   could have a significant adverse effect on public health and safety and/or the
   common defense and security by significantly increasing the likelihood of theft,
   diversion, or sabotage of materials or facilities subject to NRC jurisdiction. The
   audit objective was to determine if NRC adequately ensures the protection of
   SGI. This audit was conducted to follow up on an audit issued in January 2004,
   OIG-04-A-04, Audit of NRC’s Protection of Safeguards Information.

•	 One of NRC’s statutorily mandated responsibilities under the Atomic Energy
   Act of 1954, as amended (AEA), is to license the import and export of nuclear
   materials and equipment into and from the United States. NRC issues two types
   of licenses for the import and export of nuclear material: general licenses and
   specific licenses. The type of license required depends on the amount and type
   of nuclear material or equipment and the foreign country involved. The audit
   objectives were to determine whether NRC (1) properly reviews and approves
   import/export authorizations in a timely manner, (2) effectively coordinates
   this activity with other Federal agencies, and (3) efficiently and effectively
   coordinates import/export authorizations internally.

•	 NRC issues specific and general licenses for domestic use of radioactive
   materials. Specific licenses are issued to named individuals who have filed an
   acceptable application to use certain types or quantities of radioactive materials.
   In contrast, general licenses are provided by regulations found in Title 10,
   Code of Federal Regulations (10 CFR) Part 31, General Domestic Licenses for
   Byproduct Material. These regulations allow persons to receive and use a general
   licensed device containing byproduct or source material if the device has been
   manufactured and distributed in accordance with a specific license issued by
   NRC or an Agreement State. A general licensed device (GLD) consists of
   radioactive material encased in a capsule within a shielded device. NRC asserts
   that the GLDs are designed with inherent radiation safety features so that they
   can be used by persons with no radiation safety training or experience. A few
   of the more commonly used GLDs include fixed gauges, x-ray fluorescence
   analyzers, static elimination devices, and tritium exit signs. The Office of the
   Inspector General (OIG) conducted two audits pertaining to GLDs. One
   audit sought to determine if NRC issues general licenses for only inherently
   safe nuclear materials. The other audit sought to determine if NRC’s general


                                                                             April 1, 2012–September 30, 2012   v
                         licensing program provides for the necessary accountability and tracking of
                         general licensed devices to protect public health and safety.

                     •	 NRC regulates the use of ionizing radiation for nondestructive examination of
                        the structure of materials in its jurisdiction. This process is known as industrial
                        radiography. Radiographers use radiography devices, or cameras, to produce
                        images used in the examination of structures such as pipelines. The cameras
                        contain radioactive sealed sources. When the source is exposed, radiation
                        penetrates the material and produces a shadow image on film or some other
                        detection medium. Radiography cameras use high activity sources that, if
                        unshielded, are dangerous. Significant unplanned and excessive exposures
                        to radiation, including radiation injuries, have occurred during radiography
                        operations when personnel failed to properly use survey meters and other safety
                        equipment, and failed to follow regulatory requirements and safety procedures.
                        The audit objective was to determine the adequacy of NRC’s processes for
                        overseeing licensee activities addressing the safety and control of radiography
                        sources.

                     •	 The next generation of nuclear power plants will be built under combined
                        construction permit and operating licenses (COL) that reference designs that
                        are certified by NRC. A COL is issued under 10 CFR Part 52, a process that
                        combines the construction permit and operating license. NRC, in conjunction
                        with industry, designed the Inspections, Tests, Analyses, and Acceptance Criteria
                        (ITAAC) process to verify conformance with the COL as construction proceeds.
                        ITAAC are a design-specific, pre-approved set of performance standards,
                        grouped into families, which the licensee must meet to NRC’s satisfaction.
                        Families are composed of ITAAC that are related through similar construction
                        processes, resulting products, and general inspection attributes. The audit
                        objective was to assess NRC’s regulatory approach, through the ITAAC review
                        process, to ensure that new nuclear power plants have been constructed and will
                        be operated in conformity with the license, the provisions of the Atomic Energy
                        Act, and the Commission’s rules and regulations.

                     •	 NRC has four regional offices that conduct inspection, enforcement,
                        investigation, licensing, and emergency response programs for nuclear reactors,
                        fuel facilities, and materials licensees. The regional offices, which operate under
                        the direction of a regional administrator, are NRC’s front line in carrying out its
                        mission and implementing established agency policies and programs nationwide.
                        The Region II office oversees regulatory activities in the southeastern United
                        States, and is located in Atlanta, Georgia. The Region III office oversees
                        regulatory activities in the northern midwestern United States and is located in
                        Lisle, Illinois. Independent information security risk evaluations were conducted
                        of NRC’s information technology security program, policies, and practices
                        for compliance with the Federal Information Security Management Act of 2002
                        in accordance with Office of Management and Budget guidance and Federal
                        regulations and guidelines as implemented at Region II and Region III. The
                        evaluations also sought to evaluate the effectiveness of agency security control
                        techniques as implemented at Regions II and III.

vi   NRC Office of the Inspector General Semiannual Report to Congress
•	 In November 2009, NRC entered into a contract to “execute its vision for
   implementing Microsoft technologies throughout the agency in a timely,
   efficient, and secure manner.” NRC stated in the contract’s statement of work
   that it currently employs a variety of Microsoft technologies, including Enterprise
   Project Management (EPM) tools. The contract has an estimated ceiling of
   approximately $34 million and is an Indefinite Delivery, Indefinite Quantity
   contract with provisions for firm fixed price and labor hour task orders. Effective
   implementation of the contract requires a significant level of coordination
   among participating offices. The audit objective was to evaluate NRC’s contract
   administration for technology initiatives using EPM applications under the
   contract.

•	 NRC is authorized to enforce its regulatory requirements by imposing sanctions,
   such as orders, against licensees or other persons subject to the Commission’s
   jurisdiction who are in violation of requirements. An order is a written NRC
   directive to modify, suspend, or revoke a license; to cease and desist from a
   given practice or activity; or to take such other action as may be proper. The
   Commission’s order issuing authority under Section 161 of the AEA extends to
   any area of licensed activity that the Commission deems necessary to promote the
   common defense and security or to protect health or to minimize danger to life
   or property. The audit objective was to evaluate the efficiency and effectiveness
   of NRC’s documentation, verification, and closure process for issued orders.

•	 In October 1987, NRC contracted with Southwest Research Institute (SwRI) to
   operate a Federally Funded Research and Development Center (FFRDC). SwRI
   established the Center for Nuclear Waste Regulatory Analyses (the Center) to
   provide long-term technical assistance and research related to NRC programs
   authorized under the Nuclear Waste Policy Act of 1982, as amended. In October
   1992, September 1997, September 2002, and again in September 2007, the
   agency extended its contract with the Center for an additional 5 years. The 2007
   contract, with a ceiling of approximately $123.3 million, expired on September
   28, 2012. Section 35.017 of the Federal Acquisition Regulation sets forth the
   policy regarding establishment, review, and termination of FFRDCs and related
   sponsoring agreements. The audit objectives were to determine if NRC was
   (1) properly considering all Federal Acquisition Regulation requirements for an
   FFRDC review in preparing its renewal justification, and (2) adequately fulfilling
   its oversight responsibilities for the FFRDC.




                                                                   April 1, 2012–September 30, 2012   vii
                     Investigations
                     •	 OIG conducted an investigation into several allegations concerning the
                        former NRC Chairman’s exercise of his authority under the Reorganization Plan
                        No. 1 of 1980 and the Energy Reorganization Act of 1974. The investigation
                        also addressed allegations concerning the former Chairman’s interactions with
                        NRC officials and the former Chairman’s testimony during U.S. House of
                        Representatives and Senate committee hearings in December 2011.

                     •	 OIG conducted an investigation into an allegation that an NRC licensee had no
                        quality assurance program, which has allowed the licensee to release quantities
                        of uranium and other radioactive materials into the environment over several
                        decades.

                     •	 OIG conducted an investigation into an allegation that previously identified
                        concerns regarding misconduct and deficiencies at the Vallecitos Nuclear Center
                        were not being properly addressed by the NRC.

                     •	 OIG completed an investigation into an allegation that an information
                        technology contractor may have inappropriately billed NRC’s Region II office
                        for the same work for which the contractor had previously billed NRC’s Region
                        III office.

                     •	 OIG conducted an investigation into an allegation that an NRC employee was
                        working on a volunteer basis as a collaborator on an NRC grant provided to
                        a university to develop a comprehensive undergraduate and graduate course.
                        According to the allegation, the NRC employee was also the lead reviewer
                        on the panel that recommended that the university receive the grant award;
                        however, the original grant proposal did not mention that the employee would
                        potentially provide assistance to the grant on a volunteer basis. The allegation
                        also conveyed that the grantees were planning to publish a book related to the
                        grant work, and raised a concern that the NRC employee might receive money
                        from the book publication.

                     •	 OIG conducted an investigation into an allegation that three former NRC
                        employees violated post-employment restrictions, specifically, Title 18, U.S.
                        Code, §207, “Restrictions on Former Officers, Employees, and Elected Officials
                        of the Executive and Legislative Branches,” by providing support in an ongoing
                        antitrust and unfair competition lawsuit between two NRC licensees.




viii   NRC Office of the Inspector General Semiannual Report to Congress
Overview of NRC and OIG
NRC’s Mission
NRC was formed in 1975, in accordance with the Energy Reorganization Act of
1974, to regulate the various commercial and institutional uses of nuclear materials.
The agency succeeded the Atomic Energy Commission, which previously had
responsibility for both developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and safety,
promote the common defense and security, and protect the environment. NRC’s
regulatory mission covers three main areas:

•	 Reactors—Commercial reactors that generate
   electric power and research and test reactors used
   for research, testing, and training.

•	 	Materials—Uses of nuclear materials in medical,
    industrial, and academic settings and facilities that
    produce nuclear fuel.

•	 	Waste—Transportation, storage, and disposal of
    nuclear materials and waste, and decommissioning of
    nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses for
nuclear facilities and users of nuclear materials, and (3) inspect facilities and users
of nuclear materials to ensure compliance with the requirements. These regulatory
functions relate both to nuclear power plants and other uses of nuclear materials—
like nuclear medicine programs at hospitals, academic activities at educational
institutions, research, and such industrial applications as gauges and testing
equipment.

NRC maintains a current Web site and a public document room at the agency’s
headquarters in Rockville, Maryland; holds public hearings and public meetings
in local areas and at NRC offices; and engages in discussions with individuals and
organizations.




                                                                        April 1, 2012–September 30, 2012   1
                     OIG History, Mission, and Goals
                     OIG History
                     In the 1970s, Government scandals, oil shortages, and stories of corruption covered
                     by newspapers, television, and radio stations took a toll on the American public’s
                     faith in its Government. The U.S. Congress knew it had to take action to restore
                     the public’s trust. It had to increase oversight of Federal programs and operations.
                     It had to create a mechanism to evaluate the effectiveness of Government programs.
                     And, it had to provide an independent voice for economy, efficiency, and effectiveness
                     within the Federal Government that would earn and maintain the trust of the
                     American people.

                     In response, Congress passed the landmark legislation known as the Inspector
                     General Act (IG Act), which President Jimmy Carter signed into law in 1978. The
                     IG Act created independent Inspectors General, who would protect the integrity
                     of Government; improve program efficiency and effectiveness; prevent and detect
                     fraud, waste, and abuse in Federal agencies; and keep agency heads, Congress, and
                     the American people fully and currently informed of the findings of IG work.

                     Today, the IG concept is a proven success. The IGs continue to deliver significant
                     benefits to our Nation. Thanks to IG audits and investigations, billions of dollars
                     have been returned to the Federal Government or have been better spent based
                     on recommendations identified through those audits and investigations. IG
                     investigations have also contributed to the prosecution of thousands of wrongdoers.
                     In addition, the IG concepts of good governance, accountability, and monetary
                     recovery encourage foreign governments to seek advice from IGs, with the goal of
                     replicating the basic IG principles in their own governments.




2   NRC Office of the Inspector General Semiannual Report to Congress
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in
accordance with the 1988 amendment to the IG Act. NRC OIG’s mission is to
(1) independently and objectively conduct and supervise audits and investigations
relating to NRC programs and operations; (2) prevent and detect fraud, waste, and
abuse; and (3) promote economy, efficiency, and effectiveness in NRC programs and
operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing this
commitment. Such planning ensures that audit and investigative resources are used
effectively. To that end, OIG developed a Strategic Plan1 that includes the major
challenges and critical risk areas facing NRC.

The plan identifies OIG’s priorities and establishes a shared set of expectations
regarding the goals OIG expects to achieve and the strategies that will be employed
to do so. OIG’s Strategic Plan features three goals, which generally align with NRC’s
mission and goals:

1    Strengthen NRC’s efforts to protect public health and safety and the
     environment

2    Enhance NRC’s efforts to increase security in response to an evolving
     threat environment

3    Increase the economy, efficiency, and effectiveness with which NRC
     manages and exercises stewardship over its resources




1
  OIG’s current Strategic Plan (See http://www.nrc.gov/insp-gen/plandocs/strategic-plan.pdf ) covers the period
FY 2008 through FY 2013.


                                                                                              April 1, 2012–September 30, 2012   3
OIG Programs and Activities
                     Audit Program
                     The OIG Audit Program focuses on management and financial operations;
                     economy or efficiency with which an organization, program, or function is
                     managed; and whether the programs achieve intended results. OIG auditors
                     assess the degree to which an organization complies with laws, regulations, and
                     internal policies in carrying out programs, and they test program effectiveness as
                     well as the accuracy and reliability of financial statements. The overall objective
                     of an audit is to identify ways to enhance agency operations and promote greater
                     economy and efficiency. Audits comprise four phases:

                     •	 Survey phase—An initial phase of the audit process is used to gather
                        information, without detailed verification, on the agency’s organization,
                        programs, activities, and functions. An assessment of vulnerable areas determines
                        whether further review is needed.

                     •	 Verification phase—Detailed information is obtained to verify findings and
                        support conclusions and recommendations.

                     •	 Reporting phase—The auditors present the information, findings, conclusions,
                        and recommendations that are supported by the evidence gathered during the
                        survey and verification phases. Exit conferences are held with management
                        officials to obtain their views on issues in the draft audit report. Comments from
                        the exit conferences are presented in the published audit report, as appropriate.
                        Formal written comments are included in their entirety as an appendix in the
                        published audit report.

                     •	 Resolution phase—Positive change results from the resolution process in which
                        management takes action to improve operations based on the recommendations
                        in the published audit report. Management actions are monitored until final
                        action is taken on all recommendations. When management and OIG cannot
                        agree on the actions needed to correct a problem identified in an audit report,
                        the issue can be taken to the NRC Chairman for resolution.

                     Each fiscal year, OIG issues an Annual Plan that summarizes the audits planned
                     for the coming fiscal year. Unanticipated high-priority issues may arise that
                     generate audits not listed in the Annual Plan. OIG audit staff continually monitor
                     specific issues areas to strengthen OIG’s internal coordination and overall planning
                     process. Under the OIG Issue Area Monitor (IAM) program, staff designated as
                     IAMs are assigned responsibility for keeping abreast of major agency programs and
                     activities. The broad IAM areas address nuclear reactors, nuclear materials, nuclear
                     waste, international programs, security, information management, and financial
                     management and administrative programs.




4   NRC Office of the Inspector General Semiannual Report to Congress
Investigative Program
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to NRC
programs and activities, investigating misconduct by NRC employees, interfacing
with the Department of Justice on OIG-related criminal matters, and coordinating
investigations and other OIG initiatives with Federal, State, and local investigative
agencies and other OIGs. Investigations may be initiated as a result of allegations or
referrals from private citizens; licensee employees; NRC employees; Congress; other
Federal, State, and local law enforcement agencies; OIG audits; the OIG Hotline; and
IG initiatives directed at areas bearing a high potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, OIG’s
Investigative Program directs much of its resources and attention to investigations of
alleged conduct by NRC staff that could adversely impact matters related to health
and safety. These investigations may address allegations of:

•	 Misconduct by high-ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and
   safety.

•	 Failure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 Failure by NRC to appropriately transact nuclear regulation publicly and
   candidly and to openly seek and consider the public’s input during the regulatory
   process.

•	 Conflicts of interest involving NRC employees and NRC contractors and
   licensees, including such matters as promises of future employment for favorable
   or inappropriate treatment and the acceptance of gratuities.

•	 Fraud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify
specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A
primary focus is electronic-related fraud in the business environment. OIG is
committed to improving the security of this constantly changing electronic business
environment by investigating unauthorized intrusions and computer-related fraud,
and by conducting computer forensic examinations. Other proactive initiatives focus
on determining instances of procurement fraud, theft of property, Government credit
card abuse, and fraud in Federal programs.




                                                                      April 1, 2012–September 30, 2012   5
                     OIG General Counsel Regulatory Review
                     Regulatory Review
                     Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG reviews
                     existing and proposed legislation, regulations, policy, and implementing Management
                     Directives (MD), and makes recommendations to the agency concerning their impact
                     on the economy and efficiency of agency programs and operations.

                     Regulatory review is intended to provide assistance and guidance to the agency prior
                     to the concurrence process so as to avoid formal implementation of potentially flawed
                     documents. OIG does not concur or object to the agency actions reflected in the
                     regulatory documents, but rather offers comments and requests responsive action
                     within specified timeframes.

                     Comments provided in regulatory review reflect an objective analysis of the language
                     of proposed agency statutes, directives, regulations, and policies resulting from OIG
                     insights from audits, investigations, and historical data and experience with agency
                     programs. OIG’s review is structured so as to identify vulnerabilities and offer
                     additional or alternative choices.

                     From April 1, 2012, through September 30, 2012, OIG reviewed agency documents,
                     including Commission papers (SECYs), Staff Requirements Memoranda, Federal
                     Register Notices, regulatory actions, and statutes.

                     To effectively track the agency’s response to OIG regulatory review, comments
                     include a request for written replies within 90 days, with either a substantive reply or
                     status of issues raised by OIG.

                     During this period, substantive comments were provided for three agency MD
                     revisions related to human capital issues: MD 10.1, Recruitment, Appointment, and
                     Merit Staffing; MD 10.101, Employee Grievances; and MD 14.2, Relocation Allowances.

                     •	 M
                        	 D 10.1 provides guidance on fair and equitable appointments and employment
                        within NRC. The revised document was generally comprehensive. OIG
                        comments focused on clarification of IG functions, the addition of references
                        related to OIG, as well as suggesting further definition in describing
                        reemployment rights and issues related to temporary promotions. OIG provided
                        more detailed suggestions on the need for additional elaboration of processes to
                        be employed when compromise of a selection was suspected.

                     •	 M
                        	 D 10.101 describing NRC agency procedures for grievances was well
                        constructed. OIG suggested an addition to the Organizational Responsibilities and
                        Delegations of Authority section to include the Chairman, Commission, and Office
                        of the Inspector General, along with a detailed description of the independent
                        OIG grievance procedures and a recitation of its functional role in oversight of this
                        program. In addition, the need for clarification as to whether former employees are
                        covered by this MD and specification of precise time limits for certain actions was
                        identified. Finally, further detail on the role of union representatives was suggested.

6   NRC Office of the Inspector General Semiannual Report to Congress
•	 	OIG provided two significant comments on MD 14.2. The first identified the
    need to clarify the delegations of authority within the OIG. The second suggested
    changing the terminology used in the document to avoid confusion with other
    allowance and incentive programs.

OIG also commented on draft MD 6.3, The Rulemaking Process, providing language to
correctly reflect the role and functions of the OIG within agency rulemaking.



Other OIG General Counsel Activities
Support of the IG Community in Training and Presentation
The Council of Counsels to Inspectors General, a group of attorneys who
serve as legal advisors in the Federal Inspector General community, sponsors a
training program for law students working as summer interns in IG offices in the
Washington, DC, area. As part of the introductory session, Maryann Grodin,
the NRC OIG General Counsel, provided a 1-hour presentation on the History
and Concept of the Inspector General in the Federal Government. In addition
to the chronological history, the OIG General Counsel related the political and
philosophical context of IG authority and functions, adding factual illustrations
and anecdotes from practice in the community.

In addition, Ms. Grodin made two presentations based on a 2011 article published
in The Federal Ethics Report and The Journal of Public Inquiry, titled, “Growing Old
Together: Inspector General and Ethics Counsel Changing Environments and
Challenges.” The article provides a comprehensive description of statutory and
regulatory rules that define the roles of Federal Government attorneys serving as ethics
advisors and IG counsel. Along with the history of these positions, the article discusses
their professional and organizational relationships and best practices. The article was
jointly authored by Assistant Counsel Nancy Eyl, Department of Homeland Security
Office of Inspector General; Alexandra Keith, Senior Attorney in the Office of General
Counsel of the Special Inspector General for Iraq Reconstruction; and Ms. Grodin.

The first presentation concerning the 2011 article was to the Association of
Inspectors General. This professional organization fosters and promotes public
accountability and integrity in the general areas of prevention, examination,
investigation, audit, detection, elimination, and prosecution of fraud, waste and abuse,
through policy research and analysis; standardization of practices, policies, conduct,
and ethics; encouragement of professional development by providing and sponsoring
educational programs; and the establishment of professional qualifications,
certifications, and licensing. The second presentation was made at the U.S. Navy
Inspector General Conference in Washington, DC, to several hundred military and
civilian attendees. In both lectures, Ms. Grodin conducted an interactive practical
exercise, and provided responses to questions on IG ethics issues.




                                                                        April 1, 2012–September 30, 2012   7
                     Other OIG Activities
                     NRC OIG Employee Receives Prestigious Inspector
                     General Award




                     Judy G. Gordon receives 2012 Inspector General Award. Pictured left to right are David C. Lee, Deputy Inspector
                     General; Judy Gordon, Quality Assurance Manager; and Hubert T. Bell, Inspector General.
                     Source: NRC




                     The NRC Inspector General, Hubert T. Bell, recognizes with appreciation the valuable
                     contributions made by OIG employees over the course of their OIG career. In July
                     2012, Inspector General Bell presented Judy G. Gordon, Quality Assurance Manager,
                     with the prestigious Inspector General Award in recognition of her outstanding
                     achievements of OIG-wide significance. During her 14 year career with OIG, Ms.
                     Gordon has consistently made outstanding contributions to the Audit and Investigation
                     programs in particular as well as the wider OIG program and its mission as a whole.




8   NRC Office of the Inspector General Semiannual Report to Congress
Management and
Performance Challenges
 Most Serious Management and Performance Challenges
      Facing the Nuclear Regulatory Commission*
                   as of October 1, 2011
            (as identified by the Inspector General)
  Challenge 1 Oversight of nuclear material used for civilian purposes.

  Challenge 2 Managing information to balance security with openness and
              accountability.

  Challenge 3 Ability to modify regulatory processes to meet a changing environment,
              to include the licensing of new nuclear facilities.

  Challenge 4 Oversight of radiological waste.

  Challenge 5 Implementation of information technology and information security
              measures.

  Challenge 6 Administration of all aspects of financial management and procurement.

  Challenge 7 Managing human capital.


*The most serious management and performance challenges are not ranked in any order
 of importance.




                                                                          April 1, 2012–September 30, 2012   9
                    Audits
                     To help the agency improve its effectiveness and efficiency during this period, OIG
                     completed 11 financial and performance audits or evaluations, summarized below, that
                     resulted in numerous recommendations to NRC management. In addition, the Defense
                     Contract Audit Agency completed three contract audits for OIG.


                     Audit Summaries
                     Audit of NRC’s Protection of Safeguards Information
                     OIG Strategic Goal: Security
                     Safeguards Information, or SGI, is a category of sensitive unclassified information
                     that is unique to NRC. SGI is detailed security-related information that identifies
                     security measures for the physical protection of special nuclear material, or security
                     measures for the physical protection and location of certain plant equipment vital
                     to the safety of production or utilization facilities. Unauthorized disclosure of
                     SGI could have a significant adverse effect on public health and safety and/or the
                     common defense and security by significantly increasing the likelihood of theft,
                     diversion, or sabotage of materials or facilities subject to NRC jurisdiction. Such an
                     unauthorized release could result in damage to the Nation’s critical infrastructure,
                     which includes nuclear power plants and certain other facilities and radioactive
                     materials licensed and regulated by the NRC.

                     Access to SGI is restricted to personnel who have an established “need-to-know” the
                     information and are deemed “trustworthy and reliable” by undergoing a background
                     check and a Federal Bureau of Investigation criminal history records check. A
                     security clearance is not needed to access SGI. While most people who consistently
                     deal with SGI are NRC employees or licensees, access to SGI is not contingent upon
                     one’s relationship with NRC. For example, contractors, consultants, private citizens
                     who participate in adjudicatory hearings, and qualified private citizens who choose
                     to comment on certain regulatory guides can gain access to SGI if they meet the
                     regulatory requirements stated above.

                     Hardcopy and electronic documents containing SGI must be protected in accordance
                     with NRC regulations and guidance. When in use, documents containing SGI must
                     always be under the direct control of the authorized user of the information. These
                     documents must be protected to avoid disclosing the information to unauthorized
                     persons. Within NRC, this means that hardcopy SGI documents are stored in
                     locked security containers, while electronic copies are stored in the Safeguards Local
                     Area Network and Electronic Safe (SLES). SLES is NRC’s electronic document
                     management system for the storage of electronic SGI documents. NRC has given
                     a select group of individuals within the agency the authority to review security
                     documents to determine whether the items contain SGI and therefore warrant
                     protection. These individuals are referred to as SGI designators, and the majority


10   NRC Office of the Inspector General Semiannual Report to Congress
of offices have at least one designator. The SGI designator role is a collateral duty
and employees must fulfill training requirements to become certified to perform the
role. Only individuals who have been certified as SGI designators can make SGI
determinations.

The audit objective was to determine if NRC adequately ensures the protection
of SGI. This audit was conducted to follow up on an audit issued in January
2004, OIG-04-A-04, Audit of NRC’s Protection of Safeguards Information. The 2004
audit found that the benefit of having an SGI program was unclear and that NRC
lacked a central authority for controlling, coordinating, and communicating SGI
program requirements. The audit also found examples in which NRC and licensee
representatives inappropriately released SGI to unauthorized individuals.

Audit Results:
Since the 2004 audit, NRC has made improvements to the SGI program, including
the development of a management directive specifically for SGI and identification of
a lead program office for developing SGI policies and procedures. However, OIG
identified the following areas for further improvement of the SGI program: NRC
(1) lacks a structured process for tracking SGI releases, (2) lacks guidance on granting
“outsiders” access to SGI, and (3) has inadequate business processes over the SGI
designator role.

Lack of a Structured Process for Tracking SGI Releases

While SGI releases are reported to NRC offices identified to record and respond
to such incidents, the total universe of SGI releases is not known to NRC
management. The universe of SGI releases is unknown because NRC does not
have a structured, streamlined process for reporting and tracking releases. Without
a full understanding of the universe of releases, NRC cannot trend releases to see
if there is a systemic problem that could be resolved from additional guidance, or if
clarifications to existing guidance need to be made.

During the audit, OIG attempted to identify the universe of SGI releases reported
to one or more of the five NRC offices assigned to receive such notifications and to
assess the timeliness of such reporting. Auditors determined that 95 unique releases
were reported between March 11, 2005, and October, 4, 2011. While nearly 60
percent of the releases were reported the day the incident occurred, 10 percent were
not reported until a month or more after the release occurred.

No Guidance for Granting “Outsiders” Access to SGI

While MD 12.7 provides details on many aspects of protecting SGI, it lacks guidance
on how to grant SGI access to a non-NRC, non-licensee entity. MD 12.7 lacks
information about approving SGI access to outsiders because the Office of Nuclear
Security and Incident Response, which is responsible for the content of MD 12.7,
believes that the existing guidance is sufficient. Without comprehensive guidance,
there is no assurance that consistent measures are being taken to protect SGI.


                                                                      April 1, 2012–September 30, 2012   11
                       Inadequate Business Processes Over the SGI Designator Role

                       NRC does not have accurate and complete records on the universe of SGI designators
                       because NRC lacks adequate business processes over the SLES SGI designator role
                       and certified SGI designator list. OIG interviewed 46 NRC employees who were
                       listed on the certified SGI designator list. Of the 46 interviewed, 16 (35 percent) did
                       not know they were on the list. Furthermore, 21 individuals (46 percent) have never
                       designated SGI. Several employees had moved offices, changed job functions, or no
                       longer needed to maintain their status as an SGI designator.

                       A lack of accurate SGI designator lists could prevent NRC from communicating
                       policy or procedural changes to those who have this responsibility and ensuring
                       there is adequate SGI designator coverage throughout the program offices.

                       (Addresses Management and Performance Challenge #5)



                       Audit of NRC’s Management of Import/Export
                       Authorizations
                       OIG Strategic Goal: Security and Corporate Management
                       NRC’s mission is to regulate the Nation’s civilian use of nuclear materials to ensure
                       protection of public health and safety, promote the common defense and security, and
                       protect the environment. One of the agency’s statutorily mandated responsibilities
                       under the Atomic Energy Act of 1954, as amended (AEA), is to license the import and
                       export of nuclear materials and equipment into and from the United States.

                       NRC issues two types of licenses for the import and export of nuclear material:
                       general licenses and specific licenses. The type of license required depends on the
                       amount and type of nuclear material or equipment and the foreign country involved.
                       A person may use an NRC general license as authority to import or export nuclear
                       material or equipment if the item is covered by the NRC general licenses issued
                       under regulation in 10 CFR Part 110. If an import or export is not covered by the
                                               general license, a person must file an application with the
                 Cost Recovery
                                               Commission for a specific license. A specific import/export
      Hours Billed to Hours Worked
                                               license is a paper document issued by the NRC on a case-
 Biennial Period 2004–2006       2004–2006     by-case basis to a named person or entity for the proposed
  Hours Billed                     2,297.25    transaction(s) described in the license application form.
  Hours Worked                     3,202.75
  Under Recovery                    28.27%
                                                NRC’s Office of International Programs (OIP) is assigned to
 Biennial Period 2006–2008      2006–2008       process specific nuclear import/export licensing actions under
  Hours Billed                    5,641.50      10 CFR Part 110 after receiving any necessary guidance from
  Hours Worked                    6,097.00
  Under Recovery                    7.47%       the Commission. OIP coordinates its license application
                                                review, as needed, with the Office of Federal and State
 Biennial Period 2008–2010      2008–2010       Materials and Environmental Management Programs, the
  Hours Billed                    4,718.50
  Hours Worked                    5,864.50
                                                Office of Nuclear Security and Incident Response, the Office
  Under Recovery                   19.54%       of Nuclear Material Safety and Safeguards, the Office of the
Source: OIG Data
                                                General Counsel, and the Commission.

12     NRC Office of the Inspector General Semiannual Report to Congress
OIP also coordinates with State government officials and representatives of regional
low-level radioactive waste interstate compacts2 on applications for the import of waste
materials. Additionally, OIP coordinates with the Departments of Energy and State on
communications with foreign governments related to requirements of the AEA.

From FY 2008 through FY 2010, OIP completed between 123 and 139 licensing actions
per year. OIP has nine staff who spend part of their work effort on processing import
and export license applications. In FY 2010, according to NRC Human Resources
Management System records, OIP staff charged approximately 2,670 staff-hours to
billable licensing activities. Other program offices involved in reviewing import/export
applications estimated they expended approximately an additional 969 staff-hours in
support of billable import/export licensing activities during the same period.

The audit objectives were to determine whether NRC (1) properly reviews and approves
import/export authorizations in a timely manner, (2) effectively coordinates this activity
with other Federal agencies, and (3) efficiently and effectively coordinates import/export
authorizations internally.

Audit Results:
In general, OIP is properly reviewing and approving import/export license
authorizations (applications) in a timely fashion and coordinates effectively with
external stakeholders. However, OIG identified opportunities for improvement for
more efficient and effective internal coordination on import/export authorizations.
Specifically, OIP does not (1) have a systematic approach to biennial fee reviews and
adjustments, (2) reconcile import/export license application revenue, and (3) employ an
adequate quality control review process over application files.

OIP Does Not Have a Systematic Approach to Biennial Fee Reviews and
Adjustments

OIP employs an ad hoc and inconsistent approach to identifying the hours and license
applications to include in the agency’s biennial review of costs associated with import/
export licensing activities. OIP does not use a systematic method to:

•       Determine staff hours spent reviewing import/export license applications.

•       Determine the number of licensing applications per fee category.

•       Adjust the average number of hours assigned per import/export license category as a
        result of the biennial fee review.

These inconsistencies occur because OIP management does not provide sufficient
quality control over data collection, data analysis, and use of biennial fee review results.
As a result, OIP is not accurately charging licensees, also known as customers, and not
receiving full reimbursement for the cost of providing these services.

2
    Under the Low-Level Radioactive Waste Policy Amendments Act of 1985, States were given the responsibility for
    disposal of their low-level radioactive waste. States were encouraged to enter into agreements (compacts) to dispose
    of waste in common facilities. Currently, there are 10 interstate compacts and 10 unaffiliated States.


                                                                                                 April 1, 2012–September 30, 2012   13
                   OIG estimated the under recovery of import/export fees during FY 2010 by comparing
                   (a) hours worked related to import/export application processing multiplied by the
                   professional hourly rate charged for these licensing activities against (b) the fee revenue
                   reported by the Department of the Interior, National Business Center (DOI NBC)
                   for import/export activities for the same time period. This comparison indicated that
                   NRC under recovered import/export licensing costs by approximately $325,000.

                   OIP Does Not Reconcile Import/Export License Application Revenue

                   OIP recorded receipt of import/export license fees submitted by at least one applicant
                   in internal office records, but did not forward the funds to NRC’s lockbox3 as required
                   by OIP policy. Specifically, OIG compared FY 2010 data for one specific vendor
                   from OIP records to DOI NBC records. Of the 15 FY 2010 transactions for this
                   vendor, OIG identified 8 instances where OIP recorded a $4,100 fee received, but
                   DOI NBC did not have a record of the fees being processed. This error occurred
                   because OIP procedures describing the fee handling process do not specifically instruct
                   OIP employees on how to deposit revenue and OIP staff thought Office of the Chief
                   Financial Officer personnel were making the deposits.

                   Furthermore, OIP does not have adequate separation of duties related to revenue and
                   does not perform an adequate reconciliation to verify that submitted import/export
                   license fees are, in fact, deposited in the agency’s account. As a result, NRC has not
                   recovered all the money owed for services rendered.

                   OIP Does Not Employ an Adequate Quality Control Review Process Over
                   Application Files

                   Internal control standards require that all transactions be clearly documented and
                   the documentation should be readily available for examination. However, OIP
                   application files do not always contain required information to support the issuance
                   of the license. Sixty-three percent of completed import/export files reviewed by OIG
                   contained checklists that were incompletely filled out or were missing one or more
                   items identified in OIP’s policies and procedures as required documentation. Files were
                   incomplete because OIP does not employ an effective quality control process over file
                   documentation and management’s review and approval process is inadequate.

                   Incomplete file documentation and inadequate management review has resulted in
                   instances where licenses were issued without proof that all required documentation was
                   included. Without an adequate quality control process for compiling and reviewing
                   import/export files prior to completion, there is an increased chance that NRC could
                   erroneously issue a license. Such action would be contrary to NRC’s mission to ensure
                   adequate protection of public health and safety, promote the common defense and
                   security, and protect the environment.

                   (Addresses Management and Performance Challenges #1 and #6)


                   3
                       OIP policy provides that OIP staff should forward import/export license fee payments to the agency’s lockbox
                       located in St. Louis, Missouri.


14   NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Issuance of General Licenses
OIG Strategic Goal: Safety
NRC regulations provide a general license for the use of byproduct material
contained in certain products. This general license allows persons to receive and
use a device containing byproduct or source material (a general licensed device)
if the device has been manufactured and initially distributed in accordance with a
specific license issued by NRC or an Agreement State.

A general licensed device (GLD) consists of radioactive material encased in a
capsule within a shielded device. The design of a GLD is subject to a regulatory
review to ensure that the device meets NRC or Agreement State regulatory
                                                                                   Fixed Density Gauge
requirements prior to approval for distribution. NRC asserts that the GLD is       Source: Vega Australia
designed with inherent radiation safety features so that it can be used by persons
with no radiation safety training or experience. A few of the more commonly used
GLDs include fixed gauges, x-ray fluorescence analyzers, static elimination devices,
and tritium exit signs.

NRC’s Office of Federal and State Materials and Environmental Management
Programs is primarily responsible for the regulation of GLDs. Specifically, the
Licensing Branch within the office provides program oversight for the general license
program. In addition to developing and implementing technical and policy guidance,
the branch is responsible for the following:

•   Sealed Source and Device Registry Review—A device must undergo this
    review and safety evaluation prior to distribution as a GLD. Satisfying the
    review ensures that the device meets NRC’s or an Agreement State’s regulatory
    requirements.

•   General License Tracking System—This database facilitates the tracking and
    accountability of general licensees and GLDs. The database stores information
    about NRC’s current general licensees located in NRC’s jurisdiction.

•   Registration—Certain general licensees (approximately 600) are required to register
    their devices with NRC annually. The registration requires licensees to provide
    NRC the location of the devices and specific information about the licensee.

The audit objective was to determine if NRC issues general licenses for only
inherently safe nuclear materials.

Audit results:
General Licensed Devices Can Contain Dangerous Sources

Although GLDs can contain dangerous radioactive sources, NRC considers GLDs
to be inherently safe, allowing persons with no radiation training or experience to
operate these devices. Existing regulations do not specify an activity threshold for
byproduct material allowed in general licensed fixed gauges. When exposed to a

                                                                          April 1, 2012–September 30, 2012   15
                      dangerous source, a person can receive a radioactive dose that exceeds the regulatory
                      limits for radiation exposure. Exposure to radiation can occur to non-radiation
                      workers during routine operations or in accident conditions. Furthermore, members
                      of the public who encounter fixed gauges after they have been lost, stolen, or
                      improperly disposed can also be exposed.

                      (Addresses Management and Performance Challenge #1)



                      Audit of NRC’s Oversight of Industrial Radiography
                      OIG Strategic Goal: Safety
                                NRC regulates the use of ionizing radiation for nondestructive examination
                                of the structure of materials in its jurisdiction. This process is known as
                                industrial radiography. Radiographers use radiography devices, or cameras,
                                to produce images used in the examination of structures such as pipelines.
                                The cameras contain radioactive sealed sources. When the source is exposed,
                                radiation penetrates the material and produces a shadow image on film or
                                some other detection medium.
Radiography camera.   Radiography cameras use high-activity sources that, if unshielded, are dangerous. The
Source: NRC
                      typical radioactive sources used in industrial radiography are iridium-192 and cobalt-60.
                      As an example of how dangerous these sources can be, an unshielded 50-curie iridium-
                      192 radioactive source could cause severe injury if the source is within a few inches of a
                      person for an hour. Significant unplanned and excessive exposures to radiation, including
                      radiation injuries, have occurred during radiography operations when personnel failed to
                      properly use survey meters and other safety equipment, and failed to follow regulatory
                      requirements and safety procedures. For example, a radiographer working under an
                      NRC license received radiation exposures beyond the NRC occupational dose limits
                      when the source failed to fully retract into the shielded position.

                      NRC’s regulatory requirements for industrial radiography are provided in 10 CFR
                      Part 34, “Licenses for Industrial Radiography and Radiation Safety Requirements
                      for Industrial Radiographic Operations.” These regulations require radiographers to
                      perform radiography in a safe manner. For example, radiographers are required to
                      post radiation and high-radiation boundaries when performing radiography. Also, the
                      regulations require radiographers to wear radiation monitoring equipment to track the
                      radiation dose to the radiography workers and use radiation monitoring equipment to
                      warn workers when radiation is present.

                      The audit objective was to determine the adequacy of NRC’s processes for overseeing
                      licensee activities addressing the safety and control of radiography sources.

                      Audit Results
                      Generally, NRC’s oversight of industrial radiography is effective, and the agency has
                      taken steps to improve its oversight by updating some guidance for radiography and
                      stressing the importance of safety culture during radiography inspections. However,


16     NRC Office of the Inspector General Semiannual Report to Congress
OIG identified the following areas that could be improved:
•   Clarity and consistency of radiography licenses.
•   Routine inspection program for licensees.
•   Temporary job site inspections.
•   Approach to inspecting NRC licensees located in Agreement States.
Radiography Licenses Are Not Clear or Consistent

Radiography licenses do not clearly or consistently indicate what activities licensees
are authorized to conduct or where the licensees may conduct them because NRC
management does not require such information in the license. As a result, (1) some
licensees have unknowingly performed unauthorized activities, (2) inspectors could
miss inspecting activities or expend resources attempting to inspect activities no longer
authorized by NRC, and (3) license reviewers could make future licensing decisions
based on inaccurate information.

NRC’s Routine Inspection Program for NRC Radiography Licensees Could Be
Improved

During routine inspections, NRC does not always inspect the location where the
licensee’s Radiation Safety Officer (RSO) works to verify the RSO is adequately
overseeing the licensee’s radiation safety program. Additionally, inspectors use various,
inconsistent factors to select which field stations to inspect for licensees with multiple
field stations. NRC’s inspection guidance lacks language defining which licensee
location should be visited for each routine inspection, and lacks a methodology to
ensure that field station selection is reliable. As a result, (1) future inspectors might not
inspect the location where the RSO is for each routine inspection and (2) radiography
licensee field stations may go significant periods of time without an inspection, or never
get inspected.

NRC Could Improve Temporary Job Site Inspections

Some NRC licensees’ temporary job sites have not been inspected for several
consecutive routine inspections because NRC management has not formally defined
when inspectors should take additional steps to arrange for a temporary job site
inspection. Additionally, NRC is not inspecting radiography at temporary job sites on
offshore platforms or lay-barges because the agency has not secured transportation to
offshore platforms and lay-barges and NRC has not established a means to be aware
of when and where its licensees conduct radiography at these temporary job sites.
As a result, NRC does not know whether licensees conducting radiography at these
temporary job sites are in compliance with NRC regulations.

Inconsistent Approach To Inspecting NRC Licensee Facilities in Agreement
States

Some NRC inspectors do not know what they can require of an NRC licensee during
an inspection when that licensee’s facility is located in an Agreement State because
there is no guidance for NRC inspectors conducting inspections of NRC licensees in


                                                                          April 1, 2012–September 30, 2012   17
                    Agreement States. Therefore, inspectors risk (1) missing violations that fall within NRC
                    jurisdiction and (2) encroaching on Agreement State jurisdiction.

                    (Addresses Management and Performance Challenge #1)



                    Audit of NRC’s Inspections, Tests, Analyses, and Acceptance
                    Criteria (ITAAC) Process
                    OIG Strategic Goal: Safety
                                                  The next generation of nuclear power plants will be
                                                  built under combined construction permit and operating
                                                  licenses (COL) that reference designs that are certified
                                                  by NRC. The Office of New Reactors (NRO) is the lead
                                                  organization for licensing new reactors and overseeing
                                                  their construction.

                                                 A COL is issued under 10 CFR Part 52, a process
                                                 that combines the construction permit and operating
                                                 license. NRC, in conjunction with industry, designed
                                                 the ITAAC process to verify conformance with the COL
                                                 as construction proceeds. ITAAC are a design-specific,
Source: NRC
                    pre-approved set of performance standards, which the licensee must meet to NRC’s
                    satisfaction. Families are composed of ITAAC that are related through similar
                    construction processes, resulting products, and general inspection attributes.

                    NRC conducts performance-based inspections throughout the construction period on a
                    sample of ITAAC completed by the licensee to verify that they have been appropriately
                    completed. Once the licensee determines that the acceptance criteria have been met
                    for a particular ITAAC, it informs NRC by submitting an ITAAC closure notification
                    to NRC for review.

                    ITAAC inspections are performed primarily by the Center for Construction Inspection
                    in Region II. Other Region II construction inspectors and NRC headquarters technical
                    staff will participate in the inspection and oversight activities to better ensure that the
                    facility conforms to the conditions of the COL.

                    NRC vendor inspections are also performed as part of the ITAAC inspection process,
                    in particular because a key characteristic of the current approach to new reactor
                    construction is the use of modular assemblies, which are constructed offsite and
                    shipped to the construction site for installation. Interdependence between the ITAAC
                    and vendor inspection programs is an important aspect of NRC’s role in assuring
                    that components destined for modular assemblies that will go into new reactors are
                    manufactured to appropriate safety and regulatory standards. ITAAC inspection results
                    will be recorded in an NRC-created and maintained electronic database referred to as
                    the Construction Inspection Program Information Management System (CIPIMS).

                    The audit objective was to assess NRC’s regulatory approach, through the ITAAC
                    review process, to ensure that new nuclear power plants have been constructed and will

18     NRC Office of the Inspector General Semiannual Report to Congress
be operated in conformity with the license, the provisions of the Atomic Energy Act,
and the Commission’s rules and regulations.

Audit Results
The agency established NRO in 2006 to oversee the regulatory activities associated
with new reactor licensing under 10 CFR Part 52. To date, NRO staff have taken
significant steps to employ a formalized approach for reviewing new reactor
construction, such as implementing the ITAAC closure process. Staff have continued
to strengthen the ITAAC closure process by developing and revising guidance and
inspection procedures, creating a database tracking system, and working to identify
and remedy issues associated with the ITAAC process. OIG identified opportunities
to further improve aspects of the ITAAC process with regard to (1) ITAAC guidance
and procedures, (2) development and implementation of CIPIMS, (3) a formal strategy
for inspection of components and modular assembly facilities, and (4) coordination
between headquarters and NRC Region II.

Strengthening Guidance Would Enhance Staff Understanding of ITAAC
Requirements

NRC staff have an inconsistent understanding of existing ITAAC guidance and procedures.
This is because current programmatic guidance and procedures lack clarity, and training is
improvised. Consequently, NRC may not be able to ensure that new nuclear power plants
have been constructed and will be operated in conformity with the license, the provisions of
the Atomic Energy Act, and the Commission’s rules and regulations.

Development and Implementation of CIPIMS Has Been Delayed

CIPIMS is a necessary tool to document all ITAAC and vendor inspections, inform
the agency’s ITAAC closure notice review, and support the Commission in making
informed findings for permitting licensees to load fuel into a newly constructed
reactor. However, CIPIMS was not available when ITAAC-related construction
activities were begun at Vogtle, Georgia, in March 2010.4 While CIPIMS was
officially deployed in January 2012, just prior to NRC’s approval of the Vogtle COL
on February 10, 2012, two software updates were already planned through the end of
the fiscal year. Delays associated with CIPIMS development and deployment occurred
due to insufficient oversight of database development. Consequently, NRC has spent
approximately $2 million, some of which cannot be accurately accounted for, over a
period of 5 years without developing a fully functional database for the ITAAC closure
process. Additional delays and inaccurate accounting are likely to continue.

A Formal Strategy for Inspection of Components at Modular Assembly Facilities
Would Strengthen the ITAAC Inspection Program

The extent to which NRC’s inspection activities for components manufactured and
assembled offsite are sufficient for ITAAC verification is unclear. This is because
NRC has not developed a formal strategy for evaluating what inspections are
necessary at modular assembly facilities located away from the plant construction

4
    Located near Augusta, Georgia, Southern Nuclear Company has begun construction on two AP1000 Pressurized
    Water Reactors that are designated as Vogtle, Units 3 & 4.


                                                                                        April 1, 2012–September 30, 2012   19
                     site. Consequently, NRC may not be able to provide reasonable assurance that new
                     nuclear plants are constructed in accordance with NRC requirements.

                     Coordination Between Headquarters and Region II Could Be Improved

                     There is a lack of sustained coordination both within headquarters and between
                     headquarters and Region II for ITAAC program related activities and interactions.
                     These problems would have been minimized if NRO and Region II had in
                     place formalized change management processes to address communications and
                     coordination problems in a changing environment. Without a formalized change
                     management process, coordination and communication concerns between NRO and
                     Region II will continue to proliferate, with the potential to affect the agency’s safety
                     mission.

                     (Addresses Management and Performance Challenge #3)



                     Information Security Risk Evaluations of Region II
                     (Atlanta, GA) and Region III (Lisle, IL)
                     OIG Strategic Goal: Security
                     NRC has four regional offices that conduct inspection, enforcement, investigation,
                     licensing, and emergency response programs for nuclear reactors, fuel facilities,
                     and materials licensees. The regional offices, which operate under the direction
                     of a regional administrator, are NRC’s front line in carrying out its mission and
                     implementing established agency policies and programs nationwide. NRC’s Region
                     II office oversees regulatory activities in the southeastern United States, and is located
                     in Atlanta, Georgia. NRC’s Region III office oversees regulatory activities in the
                     northern midwestern United States and is located in Lisle, Illinois.

                     Office of Management and Budget (OMB) Circular A-130, Management of Federal
                     Information Resources, Appendix III, Security of Federal Automated Information Resources,
                     requires agencies to implement and maintain an information technology (IT) security
                     program, including the preparation of policies, standards, and procedures. An
                     effective IT security program is an important managerial responsibility. Management
                     establishes a positive climate by making computer security a part of the information
                     resources management process and by providing support for a viable IT security
                     program.

                     On December 17, 2002, the President signed the E-Government Act of 2002, which
                     included the Federal Information Security Management Act (FISMA) of 2002.
                     FISMA outlines the information security management requirements for agencies,
                     which include an annual independent evaluation of an agency’s information security
                     program and practices to determine their effectiveness. FISMA requires the annual
                     evaluation to be performed by the agency’s OIG or by an independent external
                     auditor.


20   NRC Office of the Inspector General Semiannual Report to Congress
The objectives of the regional information security risk evaluations were to:

•   Perform independent information security risk evaluations of the NRC IT security
    program, policies, and practices for compliance with FISMA of 2002 in accordance
    with OMB guidance and Federal regulations and guidelines as implemented at
    Region II and Region III.

•   Evaluate the effectiveness of agency security control techniques as implemented at
    Region II and Region III.

Region II Evaluation Results:
Region II has made improvements in its implementation of NRC’s IT security program
and practices for NRC IT systems since the previous evaluations in 2003, 2006, and
2009. All corrective actions from the previous evaluations have been implemented.
However, the Region II IT security program and practices are not always consistent
with the NRC’s IT security program, as summarized below:

Physical and Environmental Security Controls. All IT equipment in the Region II data
center and telecommunications closets is connected to short-term uninterruptible
power supplies (UPS); however, the UPSs are not tested on a regular basis. As a result,
Region II does not have assurance the UPSs will perform as expected in the event of a
power failure. If a UPS fails during a power failure, equipment may not be shut down
in an orderly manner, resulting in possible equipment damage or loss of data.

Continuity of Operations and Recovery. Backup procedures are not maintained and kept
up-to-date as required. As a result, Region II may not have reliable IT system backup
information available if there is a need for system or file recovery.

IT Security Program. Some NRC-owned laptops have not been authorized to operate
and documentation for regional laptop systems is not up-to-date. As a result, Region
II is not fully compliant with NRC requirements for laptop systems. Without
up-to-date documentation, Region II laptop systems users may not be aware of their
responsibilities with regard to use of these laptops, which could lead to unauthorized
use of NRC resources or release of sensitive information.

Regional IT security program procedures are not kept up-to-date. As a result, steps or
processes could be skipped or forgotten if personnel responsible for a particular activity
are unavailable. In addition, outdated procedures make it more difficult when training
new personnel to handle a specific activity.

Region III Evaluation Results:
Region III has made improvements in its implementation of NRC’s IT security
program and practices for NRC IT systems since the previous evaluations in 2003,
2006, and 2009. All corrective actions from the previous evaluations have been
implemented. However, the Region III IT security program and practices are not
always consistent with NRC’s IT security program, as summarized below.



                                                                       April 1, 2012–September 30, 2012   21
                   Continuity of Operations and Recovery. Server administration procedures, including
                   backup procedures are not maintained and kept up-to-date as required.

                   IT Security Program. Regional procedures and divisional instructions specific to the
                   Region III IT security program are not kept up-to-date. As a result, steps or processes
                   could be skipped or forgotten if personnel responsible for a particular activity are
                   unavailable. In addition, outdated procedures make it more difficult when training new
                   personnel to handle a specific activity.

                   (Addresses Management and Performance Challenges #2 and #5)



                   Audit of NRC’s Contract Administration of the EPM
                   Contract
                   OIG Strategic Goal: Corporate Management
                   In November 2009, NRC entered into a contract to “execute its vision for
                   implementing Microsoft technologies throughout the enterprise in a timely, efficient
                   and secure manner.” NRC stated in the contract’s statement of work that it currently
                   employs a variety of Microsoft technologies, including Enterprise Project Management
                   (EPM) tools.5 NRC noted that these EPM applications were integral to its business
                   operations and justified the need to obtain Microsoft consulting services to support
                   product updates and upgrades as the agency integrates all of the existing Microsoft
                   technologies into its current operating environment.

                   The contract has an estimated ceiling of approximately $34 million and is an Indefinite
                   Delivery, Indefinite Quantity (IDIQ) contract with provisions for firm fixed price
                   and labor hour task orders.6 The contract was awarded on November 4, 2009, for 1
                   year with 4 option year periods of performance. As of July 9, 2012, NRC had spent
                   $7,521,789.93. The contract was implemented as an umbrella contract (frequently
                   referred to as a “blanket contract”), which provides the opportunity for multiple offices
                   to obtain a variety of services related to implementing Microsoft EPM technologies
                   over the contract’s designated period of performance. For example, the Office of
                   Nuclear Reactor Regulation, the Office of New Reactors, and the Office of Information
                   Services use the Microsoft EPM applications to electronically support various agency
                   programs, such as licensing programs and maintenance of existing systems.

                   Effective implementation of the contract requires a significant level of coordination
                   among participating offices. For example, the Office of Administration and the
                   Office of Information Services share responsibility for overseeing the contract’s
                   implementation. Specifically, the Office of Administration is responsible for facilitating

                    5
                        EPM tools include applications such as Microsoft Project Server 2007, Microsoft SharePoint 2007, and Microsoft
                        SQL Server 2005.
                    6
                        An Indefinite Delivery, Indefinite Quantity contract provides for an indefinite quantity, within stated limits, of
                        supplies or services to be furnished during a fixed period, with deliveries or performance to be scheduled by placing
                        orders with the contractor (Federal Acquisition Regulation (FAR) 16.504).


22   NRC Office of the Inspector General Semiannual Report to Congress
the contract award and closeout process and negotiating contract terms. These
activities are managed by a contract specialist. The Office of Information Services
is tasked with routine contract oversight, including coordinating invoice reviews,
monitoring funding, and initiating contract modifications. These activities are
managed by a Contracting Officer’s Representative.7 Individual offices that use the
contract have responsibility for assigning a Task Order Manager to oversee the daily
implementation of their respective task orders.

The audit objective was to evaluate NRC’s contract administration for technology
initiatives using EPM applications under the EPM contract.

Audit Results
NRC’s administration of the EPM contract demonstrates a notable lack of internal
controls, specifically over the invoice review process. This is readily apparent in how
the staff inconsistently review invoices. Moreover, although NRC staff purport to
review contractor invoices for “reasonableness” per NRC guidance, the staff’s invoice
review and approval practices do not include the steps necessary to verify that the
number of contractor labor hours billed are accurate and allowable.

Invoice irregularities have occurred because NRC has not provided staff with detailed
guidance that sufficiently addresses the specifics of reviewing and approving contract
invoices, including those resulting from IDIQ contracts. Consequently, NRC lacks
assurance that contract costs are being consistently and appropriately evaluated to
determine whether they are allowable, allocable, and reasonable. OIG reviewed 83
invoices totaling approximately $6.8 million and found several irregularities. Anomalies
included costs that were outside the invoice billing period, inconsistent labor categories
and contractor and job roles, as well as status reports that did not match invoice billing
periods. As a result, NRC is vulnerable to potential fraud, waste, and abuse.

(Addresses Management and Performance Challenges #5 and #6)



Audit of NRC’s Use of Orders
OIG Strategic Goal: Safety
NRC is authorized to enforce its regulatory requirements by imposing sanctions, such
as orders, against licensees or other persons subject to the Commission’s jurisdiction
who are in violation of requirements. An order is a written NRC directive to modify,
suspend, or revoke a license; to cease and desist from a given practice or activity;
or to take such other action as may be proper. The Commission’s order issuing
authority under Section 161 of the AEA extends to any area of licensed activity that
the Commission deems necessary to promote the common defense and security or to
protect health or to minimize danger to life or property.

7
    A Contracting Officer’s Representative assists in the technical monitoring or administration of a contract (FAR
    Title 48, para 1.604).


                                                                                                April 1, 2012–September 30, 2012   23
                 The enforcement program supports the agency’s overall safety and security mission, and
                 the NRC Enforcement Policy and NRC Enforcement Manual (Manual)—maintained by the
                 Office of Enforcement—are the primary sources of guidance for NRC staff implementing
                 the enforcement program. According to the Manual, order-issuing authority resides in
                 several offices and regions and order followup is dependent upon the type of order, and
                 may consist of inspection activity, tracking, and order closure.

                 The audit objective was to evaluate the efficiency and effectiveness of NRC’s
                 documentation, verification, and closure process for issued orders.

                 Audit Results
                 Based on OIG’s review of followup for selected orders, OIG did not identify instances
                 where the agency did not follow up on the recipients’ implementation of the requirements
                 stipulated in orders. However, the efficiency and effectiveness of NRC’s documentation,
                 verification, and closure process for issued orders can be improved. Specifically,
                 opportunities exist to (1) enhance agency guidance defining order types and for the
                 followup, tracking, and closure of orders, and (2) obtain updated documented delegations
                 of authority for issuing orders for selected offices.

                 Order Guidance

                 Guidance for following up on orders should be clear and comprehensive; yet, this is not
                 the case for all types of NRC orders. Some program and regional offices that follow
                 up on orders reported having no relevant guidance for followup of orders. For offices
                 that provided their guidance to OIG, it ranged from a verbal description of the process
                 to various types of documents, including office instructions, inspection procedures,
                 memoranda, and/or agencywide enforcement procedures that do not include specific
                 information needed to document their followup, tracking, and closure of the various types
                 of order types described by agency staff. Guidance on order followup is not clear and
                 comprehensive because some offices have not identified, documented, and coordinated
                 order followup, tracking, and closure requirements. Improvements to the guidance on
                 orders would support NRC’s knowledge management efforts and would better inform
                 licensees and the public of NRC’s order process.

                 Delegations of Authority

                 Commission authorities, including the authority to issue orders, may be delegated as per
                 the AEA. The delegations of authority to issue orders for three key officers—including the
                 Office of International Programs (OIP) Director, the Executive Director for Operations
                 (EDO), and the Chief Financial Officer—are documented inconsistently. Specifically, the
                 CFO’s authority to issue orders was delegated via a Chairman’s memo, whereas agency
                 staff have been unable to locate a similar document for the OIP Director and the EDO.
                 Agency staff have not sought a similar updated documented delegation of authority for the
                 OIP Director and the EDO to issue orders. Absent an updated documented delegation of
                 authority to issue orders, the agency could face delays in pursuing enforcement of orders in
                 the event of noncompliance by an order recipient.

                 (Addresses Management and Performance Challenge #1)


24   NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Oversight of the Agency’s Federally Funded
Research and Development Center
OIG Strategic Goal: Corporate Management
In October 1987, NRC contracted with
Southwest Research Institute (SwRI) to operate
a Federally Funded Research and Development
Center (FFRDC). SwRI established the
Center for Nuclear Waste Regulatory Analyses
(the Center) to provide long-term technical
assistance and research related to NRC programs
authorized under the Nuclear Waste Policy Act
of 1982, as amended. In October 1992, September 1997, September 2002, and again               Aerial View of the SwRI
in September 2007, the agency extended its contract with the Center for an additional         in San Antonio, Texas.
                                                                                              Source: OIG
5 years. The 2007 contract, with a ceiling of approximately $123.3 million, expired on
September 28, 2012.

FAR Section 35.017 sets forth the policy regarding establishment, review, and
termination of FFRDCs and related sponsoring agreements. Section 35.017-4
requires that, prior to extending a contract for an FFRDC, a sponsor must conduct
a comprehensive review of the use of and need for the facility. The review must (1)
examine the continuing need for the FFRDC, (2) consider alternative sources, (3)
assess the FFRDC’s efficiency and effectiveness, (4) assess the adequacy of FFRDC
management in ensuring that the operation is cost-effective, and (5) determine that
guidelines for establishing the Center continue to be satisfied and that the contract is in
compliance with FAR Section 35.017-1, which requires certain contract provisions.

The audit objectives were to determine if NRC was (1) properly considering all FAR
requirements for an FFRDC review in preparing its renewal justification, and (2)
adequately fulfilling its oversight responsibilities for the FFRDC.

Audit Results
OIG found that NRC’s justification for renewal satisfactorily addressed the five
criteria set forth in FAR Section 35.017-4 and complied with agency requirements for
documenting the review.

OIG also found NRC’s technical oversight and administration of the contract are
adequate. Technical performance monitors who provide oversight of the technical areas
track contract deliverables and review monthly Center progress reports before authorizing
payment of invoices to ensure that resources expended by the Center are commensurate
with work accomplished. A contract specialist reviews invoices to ensure that (1) costs
are within the spending plan for each program element and (2) invoices are approved in a
timely manner so that payment was made within the required 30 days. OIG also reviewed
13 invoices submitted by the Center for the period October 2010 through September
2011 and found that these invoices were processed within the required times.

(Addresses Management and Performance Challenge #6)

                                                                        April 1, 2012–September 30, 2012         25
                     Audit of NRC’s 10 CFR Part 31 General Licensing
                     Program
                     OIG Strategic Goal: Safety
                     NRC issues two types of domestic licenses to users of nuclear materials. Specific
                     licenses are issued to named individuals who have filed an acceptable application to
                     use certain types or quantities of radioactive materials. In contrast, general licenses
                     are provided by regulations found in 10 CFR Part 31, General Domestic Licenses for
                     Byproduct Material. These regulations allow persons to receive and use a general
                     licensed device containing byproduct or source material if the device has been
                     manufactured and distributed in accordance with a specific license issued by NRC or
                     an Agreement State.

                     A general licensed device (GLD) consists of radioactive material encased in a capsule
                     within a shielded device. NRC asserts that the GLDs are designed with inherent
                     radiation safety features so that they can be used by persons with no radiation safety
                     training or experience. A few of the more commonly used GLDs include fixed gauges,
                     static elimination devices, x-ray fluorescence analyzers, and luminous (tritium) exit
                     signs.

                     NRC’s Office of Federal and State Materials and Environmental Management
                     Programs is primarily responsible for the regulation of GLDs. Specifically, the
                     Licensing Branch within the office provides program oversight for the general license
                     program. In addition to developing and implementing technical and policy guidance,
                     the branch is responsible for the following:

                     •   Safety evaluation reviews of sealed sources and devices–The design and use of a
                         device must undergo a technical and safety review prior to distribution as a GLD.
                         Satisfying the review ensures that the device meets NRC’s safety requirements.

                     •   General License Tracking System (GLTS)–GLTS facilitates the tracking and
                         accountability of GLDs and general licensees. This database is populated
                         primarily with information provided to NRC from device manufacturers.

                     •   Registration–General licensees in possession of GLDs containing certain isotopes
                         and activity are required to register their devices with NRC annually.

                     The audit objective was to determine if NRC’s general licensing program provides for
                     the necessary accountability and tracking of general licensed devices to protect public
                     health and safety.

                     Audit Results
                     Over the past decade, NRC has made some improvements to its oversight of general
                     licensees and GLDs to facilitate adequate protection of public health and safety and
                     the environment; however, opportunities exist for NRC to further strengthen its
                     oversight of this type of licensee. In order to improve program oversight, NRC has
                     developed and maintains GLTS and the registration program. NRC can further

26   NRC Office of the Inspector General Semiannual Report to Congress
improve oversight of general licensees and GLDs by informing each new general
licensee of regulatory requirements, and periodically re-informing general licensees of
these requirements.

Many general licensees are unaware of NRC regulatory requirements. The AEA,
through the Code of Federal Regulations, establishes these requirements for
GLDs. However, NRC relies on manufacturers to make general licensees aware
of these regulatory requirements, thereby delegating some of its responsibilities.
When licensees are unaware of their regulatory requirements, there is an increased
probability that accountability of GLDs will decrease, placing public health and safety
and the environment at risk.

(Addresses Management and Performance Challenge #1)




Audits In Progress
Audit of NRC’s Budget Execution Process
OIG Strategic Goal: Corporate Management
The Federal budget execution process involves activities related to the use of funds
appropriated by Congress. This includes the detailed planning for the use of the
funds as well as the control of their use to assure that congressional intent for the
use of the funds is preserved. During this process, the NRC Chairman, Chief
Financial Officer, allottees, allowance holders, allowance financial managers, and
funds certifying officials all share responsibilities for ensuring effective financial
management concerning the proper administrative control of funds. NRC’s
managers must ensure that public funds are used for authorized purposes, and used
economically, efficiently, and within prescribed limits.

NRC guidance mandates that agency systems for budget execution and the
administrative control of funds adhere to policies, procedures, and standards found
in management directives, OMB Circular A-34, “Instructions on Budget Execution,”
as well as other applicable Federal laws and regulations. The Office of the Chief
Financial Officer is responsible for the overall control of funds during budget
execution. NRC’s budget request for FY 2012 was approximately $1.038 billion and
3,981 full-time equivalents.

The audit objectives are to determine whether (1) NRC maintains proper
financial control over the allotment, allocation, and obligation of appropriated and
apportioned funds to ensure compliance with applicable Federal laws, policies, and
regulations; and (2) opportunities exist to improve the budget execution process.

(Addresses Management and Performance Challenge #6)




                                                                       April 1, 2012–September 30, 2012   27
                    Audit of NRC’s Travel Charge Card Program
                    OIG Strategic Goal: Management
                    NRC’s Travel Charge Card Program is part of the governmentwide Commercial
                    Charge Card Program established to pay the official travel expenses of employees
                    while on temporary duty or other official business travel. The program’s intent
                    is to improve convenience for the traveler and reduce the Government’s costs of
                    administering travel. OMB has issued guidance that establishes requirements
                    (including internal controls designed to minimize the risk of travel card misuse) and
                    suggested best practices for the Government travel card programs.

                    During FY 2011, 2,613 NRC employees charged approximately $8.8 million on
                    travel charge cards, primarily issued to employees as individually billed accounts.
                    Travel cardholders are directly responsible for all charges incurred on their accounts.

                    The Office of the Chief Financial Officer administers NRC’s travel charge card
                    program and controls the use of agency funds to ensure that they are expended in
                    accordance with applicable laws and regulations.

                    The audit objective is to assess the adequacy and effectiveness of NRC’s policies,
                    procedures, and internal controls over the travel card program for preventing and
                    detecting travel charge card misuse and delinquencies.

                    (Addresses Management and Performance Challenge #6)



                    Audit of NRC’s FY 2012 Financial Statements
                    OIG Strategic Goal: Corporate Management
                    Under the Chief Financial Officers Act and the Government Management and
                    Reform Act, OIG is required to audit the financial statements of the NRC. The
                    report on the audit of the agency’s financial statements is due on November 15, 2012.
                    In addition, OIG will issue reports on:

                    •    Special Purpose Financial Statements.

                    •    Implementation of the Federal Managers’ Financial Integrity Act.

                    •    Condensed Financial Statements.

                    •    Compliance with the Improper Payments Elimination and Recovery Act of 2010.




28   NRC Office of the Inspector General Semiannual Report to Congress
The audit objectives are to:

•   Express opinions on the agency’s financial statements and internal controls.

•   Review compliance with applicable laws and regulations.

•   Review the controls in the NRC’s computer systems that are significant to the
    financial statements.

•   Assess the agency’s compliance with OMB Circular A-123, Revised, Management’s
    Responsibility for Internal Control.

•   Assess agency compliance with the Improper Payments Elimination and
    Recovery Act of 2010.

(Addresses Management and Performance Challenge #6)



Survey of NRC’s Safety Culture and Climate
OIG Strategic Goal: Corporate Management
In 1998, 2002, 2006, and 2009, OIG contracted with an international survey firm
to conduct surveys that evaluated the organizational safety culture and climate
of the agency’s workforce and identified agency strengths and opportunities for
improvements. Comparisons were made to the previous surveys as well as to national
and Government norms. In response to the survey results, the agency evaluated the
key areas for improvement and developed strategies for addressing them.

A clear understanding of NRC’s current safety culture and climate will facilitate
identification of agency strengths and opportunities as it continues to experience
significant challenges. These challenges include the licensing of new nuclear
facilities, disposal of high-level waste, the loss of valuable experience from
retirements, operating under continuing resolutions, and legislation that froze
Federal civilian employee pay rates.

The survey objectives are to:

•   Measure NRC’s safety culture and climate to identify areas of strength and
    opportunities for improvement.

•   Compare the results of this survey against the survey results that OIG reported
    previously.

•   Provide, where practical, benchmarks for the qualitative and quantitative findings
    against other organizations.

(Addresses Management and Performance Challenge #7)



                                                                      April 1, 2012–September 30, 2012   29
                    Audit of NRC’s Progress on the 25-Point Implementation
                    Plan
                    OIG Strategic Goal: Corporate Management
                    In December 2010, the U.S. Chief Information Officer (CIO) issued the “25-Point
                    Implementation Plan to Reform Federal Information Technology Management”
                    (25-Point Plan). This guidance directs OMB and Federal agencies to undertake a
                    variety of management reforms for more efficient – and thus, cost-effective – use of
                    information technology (IT) investments.

                    The U.S. CIO created this guidance through engagements with Federal agency staff,
                    Congress, private industry, and academia, and aimed to identify practical solutions
                    to IT management problems. To that end, the 25-Point Plan emphasizes near-
                    term procedural fixes that may promote longer-term reforms. Consequently, the
                    25-Point Plan is divided into two sections: (1) Achieving Operational Efficiency,
                    and (2) Managing Large-Scale IT Programs Effectively. The former focuses on
                    cloud computing and shared services at the agency level, while the latter focuses on
                    structural changes that could improve IT programs across the Federal Government.

                    For each of its 25 points, the U.S. CIO’s guidance assigns implementation
                    responsibility to some combination of OMB, CIO and Chief Financial Officer
                    councils, specific agencies with unique missions, and all executive branch agencies.
                    NRC is thus implicated in some action items, such as #3, “Shift to a cloud-first
                    policy.” However, action items like #5, “Stand up contract vehicles for ‘commodity’
                    services” (which belongs to GSA), fall outside NRC’s purview. Lastly, all action items
                    have implementation milestones ranging from 6 to 18 months. Given the 25-Point
                    Plan release date, NRC staff should be able to discuss their efforts to achieve shorter-
                    term action items due for completion before January 2012. Longer-term action
                    items should be completed or nearing completion by July 2012.

                    The audit objective is to evaluate NRC’s progress in executing the 25-Point Plan.

                    (Addresses Management and Performance Challenge #5)



                    Audit of NRC’s Process for Calculating License Fees
                    OIG Strategic Goal: Corporate Management
                    The Omnibus Budget Reconciliation Act of 1990 (OBRA-90), as amended,
                    requires that NRC recover, through fees assessed to its applicants and licensees,
                    approximately 90 percent of its budget authority [less amounts appropriated from the
                    Nuclear Waste Fund, amounts appropriated for Waste Incidental to Reprocessing
                    activities, and amounts appropriated for generic homeland security activities (“non-
                    fee items”)].



30   NRC Office of the Inspector General Semiannual Report to Congress
To meet the requirements of OBRA-90, as amended, NRC assesses two types of
fees – user charges and annual fees. First, under the authority of the Independent
Offices Appropriation Act of 1952, NRC assesses user charges to recover costs of
providing special benefits to identifiable applicants and licensees. NRC implements
user charges for inspection services and licensing actions for the reactor and materials
programs under 10 CFR Part 170. Second, annual fees, established in 10 CFR
Part 171 under the authority of OBRA-90, as amended, recover generic and other
regulatory costs not recovered through 10 CFR Part 170 fees.

On an annual basis, NRC amends the licensing, inspection, and annual fees. The
NRC publishes the annual Fee Rule in the Federal Register.

The audit objective is to determine if NRC has established and implemented
management controls to ensure that the license fee calculation process produces
timely and accurate fees in accordance with applicable requirements.

(Addresses Management and Performance Challenge #6)



FY 2012 Evaluation of FISMA
OIG Strategic Goal: Security
Enacted on December 17, 2002, FISMA outlines the information security
management requirements for agencies, including the requirement for an annual
review and annual independent assessment by agency Inspectors General. In
addition, FISMA includes new provisions, such as the development of minimum
standards for agency systems, aimed at further strengthening the security of Federal
Government information and information systems. The annual assessments
provide agencies with the information needed to determine the effectiveness of
overall security programs and to develop strategies and best practices for improving
information security.

FISMA provides the framework for securing the Federal Government’s information
technology, including both unclassified and national security systems. All agencies
must implement the requirements of FISMA and report annually to OMB and
Congress on the effectiveness of their security programs.

The objective is to conduct an independent evaluation of the NRC’s implementation
of FISMA for FY 2012.

(Addresses Management and Performance Challenges #2 and #5)




                                                                      April 1, 2012–September 30, 2012   31
                     Evaluation of NRC’s Use of and Security Over Social
                     Media
                     OIG Strategic Goal: Security
                     Social media technologies, also commonly referred to as Web 2.0, allow individuals
                     and organizations to create, edit, organize, and share content in user generated
                     virtual communities. These Web 2.0 technologies include:

                     •   Web logs (“blogs”) – a Web site containing the writer’s or group of writers’
                         opinions on a topic including photographs and links to other Web sites.

                     •   Social media sites such as Twitter and Facebook.

                     •   Wikis – Web sites that allow their users to add, modify, or delete content via a
                         Web-browser.

                     •   Video sharing sites such as YouTube.

                     The evaluation objective is to determine how NRC uses social media, the
                     effectiveness and efficiency of NRC’s use of social media, and whether there are any
                     privacy and security vulnerabilities associated with its use.

                     The evaluation will also assess the extent to which NRC has developed and
                     implemented policies and procedures for protecting information associated with the
                     use of social media, and relevant regulatory and/or budgetary constraints impeding
                     the agency’s use of social media.

                     (Addresses Management and Performance Challenges #2 and #5)



                     Audit of NRC’s Implementation of Its NEPA
                     Responsibilities
                     OIG Strategic Goal: Safety
                     The National Environmental Policy Act of 1969 (NEPA) requires Federal agencies to
                     consider the environmental impacts of actions under their jurisdiction. NEPA requires
                     that an environmental impact statement (EIS) of the proposed action be prepared for
                     “major Federal actions significantly affecting the quality of the human environment.”
                     Consultations to ensure compliance with other statutory mandates, such as with
                     Section 7 of the Endangered Species Act of 1973 and Section 106 of the National
                     Historic Preservation Act of 1966, are also part of the NEPA review process.

                     NEPA broadly impacts NRC. Several agency offices conduct environmental reviews.
                     A NEPA review may be initiated in response to a rulemaking, an application for
                     a new license or certification, a license amendment, or a decommissioning plan
                     submitted to the NRC. Generic EISs have been developed to guide staff in the


32   NRC Office of the Inspector General Semiannual Report to Congress
areas of nuclear plant license renewal, decommissioning of nuclear facilities, and
applications for in situ uranium recovery operations. Standard review plans support
staff environmental reviews in other areas. Growing public concern over licensing
issues such as reactor aging and spent fuel storage heightens the importance of the
criteria to determine the appropriate level and adequacy of environmental reviews.

The audit objective is to determine whether NRC implements its environmental
review and consultation responsibilities as prescribed by NEPA.

(Addresses Management and Performance Challenges #1, #3, and #4)



Audit of NRC’s Safeguards Local Area Network and
Electronic Safe System
OIG Strategic Goal: Security
NRC created a system for the electronic creation, transmission and storage of
Safeguards Information (SGI) documents, known as the Safeguards Local Area
Network and Electronic Safe (SLES). This system has two components: the
Safeguards Information Local Area Network (SGI LAN) and the Electronic Safe
(E-Safe). SGI LAN is a local area network with a secure architecture dedicated for
use in SGI data processing. E-Safe is a secure electronic data repository for SGI
records. SGI LAN provides access to E-Safe.

SLES provides a secure network for authorized users to access SGI documents
electronically, reduces the volume of SGI document storage space, implements a
secure SGI records repository in compliance with National Archives and Records
Administration requirements, and enables record and document management of SGI
in a centralized electronic document management system.

The Office of Information Services is the SLES system owner with responsibility for
system operation and maintenance.

The audit objective is to determine if SLES meets its operational capabilities and
applicable security controls.

(Addresses Management and Performance Challenge #5)



Information Systems Security Evaluation Over NRC’s
Regional Offices and the Technical Training Center
OIG Strategic Goal: Security
Enacted on December 17, 2002, FISMA outlines the information security
management requirements for agencies, including the requirement for an annual
review and annual independent assessment by agency Inspectors General. In

                                                                     April 1, 2012–September 30, 2012   33
                    addition, FISMA includes new provisions, such as the development of minimum
                    standards for agency systems, aimed at further strengthening the security of Federal
                    Government information and information systems. The annual assessments
                    provide agencies with the information needed to determine the effectiveness of
                    overall security programs and to develop strategies and best practices for improving
                    information security.

                    Three of NRC’s four regional offices have relocated since OIG’s 2009 audit to assess
                    security measures at the regions and the Technical Training Center. The fourth
                    regional office will soon be relocating as well.

                    The objectives are to evaluate the (1) adequacy of NRC’s information security
                    programs and practices and (2) effectiveness of agency information security control
                    techniques for the regional offices and the Technical Training Center.

                    (Addresses Management and Performance Challenges #2 and #5)



                    Audit of NRC Training and Development for Safety
                    Oversight
                    OIG Strategic Goal: Safety
                    NRC regulates commercial nuclear power plants and nuclear materials, such as
                    nuclear medicine, industrial, and research and development through licensing,
                    inspection, and enforcement of regulations. NRC staff perform these oversight
                    activities to assure adequate protection of public health and safety and the
                    environment. Consequently, NRC provides training to its staff to improve individual
                    and organizational performance to achieve NRC’s mission and performance goals.
                    NRC strives to provide training and development programs for staff in order to:

                    •	 Maintain	formal	qualification	requirements.

                    •	 Maintain	skill	needs	to	perform	their	current	job.

                    •	 Broaden	capabilities	to	meet	future	skill	needs	of	the	NRC.

                    For example, staff overseeing materials decommissioning activities must meet
                    minimum qualification requirements and possess the knowledge, skills, and
                    abilities to successfully execute tasks required to adequately oversee materials
                    decommissioning activities. Successful training development programs enhance
                    individual and overall organizational performance.

                    The audit objective is to determine if NRC’s overall training process adequately and
                    efficiently prepares staff to perform oversight activities to assure protection of public
                    health and safety and the environment.

                    (Addresses Management and Performance Challenge #1)


34   NRC Office of the Inspector General Semiannual Report to Congress
Investigations
During this reporting period, OIG received 133 allegations, initiated 49 investigations,
and closed 32 cases. In addition, the OIG made 24 referrals to NRC management and
9 to the Department of Justice.


Investigative Case Summaries
Possible Violations of NRC’s Internal Commission
Procedures and the Reorganization Plan No 1 of 1980 by
Former Chairman
OIG Strategic Goal: Corporate Management
OIG conducted an investigation into four allegations concerning the former NRC
Chairman’s exercise of his authority under the Reorganization Plan No. 1 of 1980
and the Energy Reorganization Act of 1974. The investigation also addressed
allegations concerning the former Chairman’s interactions with NRC officials and
the former Chairman’s testimony during U.S. House of Representatives and Senate
committee hearings in December 2011.

The specific allegations were:

1. Following the earthquake and tsunami in Japan, the former Chairman exceeded
   his authority by assuming emergency powers in response to an incident at a
   foreign facility, Fukushima Dai-ichi, not regulated by NRC. He failed to keep
   the other Commissioners fully informed about events in Japan and failed to issue
   a complete and timely report to the Commission on actions taken during the
   emergency.

2. The former Chairman violated Commission procedures when he directed the
   Executive Director for Operations (EDO) and Secretary of the Commission
   (Secretary) to retract an “advance copy” of SECY-11-00938 transmitting the
   “Near Term Report and Recommendations for Agency Actions Following the
   Events in Japan.” The former Chairman then directed the EDO to strike the
   recommendations in the SECY paper that the EDO had wanted to provide and
   resubmit the document without staff analysis or recommendations.

3. Commissioners and senior officials provided examples where they perceived the
   former Chairman attempted to control the content and flow of information to
   the Commission. OIG examined whether the former Chairman’s control over
   matters to be presented to the Commission is in accordance with his authority
   under the Reorganization Plan No. 1 of 1980.

4. The former Chairman directed the Secretary of the Commission not to follow
   direction provided by a majority of the Commissioners pertaining to finalizing
   revisions to the NRC’s Internal Commission Procedures. Instead, the Chairman

8
    The Commission’s primary decisionmaking tool is a written issue paper referred to as a SECY paper.


                                                                                            April 1, 2012–September 30, 2012   35
                       intervened and instructed the Secretary not to act on Commission direction and
                       to act at his direction.

                     5. The Chairman’s interpersonal relationship with NRC staff and Commissioners
                        has created a chilled workplace environment at NRC.

                     6. The Chairman provided inaccurate testimony before the U.S. House of
                        Representatives Committee on Oversight and Government Reform and Senate
                        Environment and Public Works Committee in December 2011.

                     With regard to allegation #1, OIG found that the former Chairman did not exceed
                     his authorities under the Reorganization Plan in leading the agency’s response
                     to events in Japan from March 11, 2011, to May 16, 2011, while the NRC’s
                     Headquarters Operations Center (HOC) was in “monitoring mode” because
                     his response actions were within the scope of his authorities. The Chairman is
                     authorized to direct NRC’s response to emergencies under both Sections 2 and 3
                     of the Reorganization Plan. Section 2 allows the Chairman to direct the agency’s
                     response as NRC’s principal executive officer and to communicate to the public
                     about the response as the official Commission spokesman. Section 3 provides
                     special authority for the Chairman to respond to “an emergency concerning a
                     particular facility or materials licensed or regulated by the Commission” without
                     consulting with the Commission on matters that would otherwise require a collegial
                     approach under the Reorganization Plan. Section 3 also gives the Chairman the
                     sole authority to declare the existence of a Section 3 emergency. The former
                     Chairman did not clarify whether any of his actions were pursuant to his Section
                     3 authority; however, the former Chairman made no unilateral policy decisions
                     affecting NRC licensees in response to events in Japan. OIG concluded that the
                     former Chairman’s emergency response actions were authorized under his Section 2
                     authority.

                     OIG found that the Reorganization Plan does not specifically require the Chairman
                     to declare the existence of a Section 3 emergency. Moreover, OIG did not identify
                     any NRC procedure requiring the Chairman to make a Section 3 declaration, and
                     the Chairman did not make such a declaration. When asked, the former Chairman
                     did not respond clearly to specific questions from OIG, a Commissioner, and
                     members of Congress as to whether he was exercising his Section 3 authority.
                     Without such a declaration, the Commission does not know for certain whether the
                     Chairman is using that authority and is less able to hold the Chairman accountable
                     for keeping them fully informed or providing a complete and timely report
                     following the emergency.

                     OIG found that the former Chairman made reasonable efforts to keep the
                     Commissioners informed of actions taken during the monitoring mode period. The
                     former Chairman informed the Commissioners of actions taken through oral and
                     written status updates and briefings provided to the Commissioners and their staff
                     by the former Chairman and by the Executive Team working in the HOC during
                     the monitoring mode period.



36   NRC Office of the Inspector General Semiannual Report to Congress
OIG found that for allegation #2, the former Chairman’s actions concerning the
withdrawal and resubmission of the revised SECY-11-0093 with the attached near-
term task force report did not violate the Internal Commission Procedures with regard
to “withdrawal of papers submitted to the Commission.” The procedures do not
specifically define what is meant by “withdrawal” of a SECY paper, but the Secretary
of the Commission interprets this to mean withdrawal of an issue from Commission
consideration. After learning the staff had pulled back the first version of SECY-
11-0093 submitted on July 12, 2011, the Secretary received assurances that the
Commission would still vote on the attached task force report recommendations
as it had requested in prior Commission direction to the staff (COMGBJ-11-
0002) and that the recommendations would be presented as a notation vote paper.
Therefore, the Secretary concluded the temporary retraction of SECY-11-0093 did
not necessitate a written explanation by staff or polling of Commissioners, and the
General Counsel supported the Secretary’s interpretation.

OIG found the former Chairman’s direction to the Deputy EDO not to include
the EDO’s and Deputy EDO’s perspective on implementation of the near-
term task force recommendations in SECY-11-0093 was inconsistent with
the Commissioners’ expectations to receive the staff’s written views, analysis,
and recommendations as part of SECY papers. The legislative history of the
Reorganization Plan establishes that the Commissioners are to have full access to
agency information to support their policy decisionmaking and that the Chairman
is not to block the flow of information to the Commissioners. Ultimately, the
Commissioners were able to consider the information that the Chairman ordered
retracted from the initially submitted version of SECY-11-0093 as well as
information they obtained during communications with senior managers to inform
their voting on SECY-11-0093. When questioned by OIG, the General Counsel
said that this outcome means the full access requirement was met. However, the
Commissioners said they rely on the staff’s written input to support their policy
decisionmaking and found the final SECY-11-0093 transmittal memorandum to be
of no value.

OIG found that for allegation #3, the Reorganization Plan assigns the Chairman
responsibility for “developing policy planning and guidance for consideration
by the Commission,” but does not define these terms or articulate the limits on
the Chairman’s authority in this area. Moreover, the legislative history provides
conflicting interpretations as to whether the Chairman can direct the staff not to
submit written policy proposals to the Commission or alter the information the
staff provides in its written policy proposals. While a Senate committee noted
the Chairman was to serve only as a conduit to pass information forward, a House
committee noted the Chairman was responsible for guiding, developing, and
presenting policy proposals and options to the Commission. This lack of clarity
results in differing interpretations by different NRC Chairmen as to the extent
of their authority to influence and modify the staff’s policy proposals prior to
submission to the Commission.




                                                                    April 1, 2012–September 30, 2012   37
                     OIG found the former Chairman interpreted his authority broadly and, at times,
                     attempted to control the flow of information to the Commission. Specifically, the
                     former Chairman directed a senior official to change the staff’s recommendation
                     in one SECY paper and to remove the EDO’s and Deputy EDO’s perspective
                     in another prior to submission to the Commission. The former Chairman also
                     initially directed the staff to stop preparing a paper that the staff wanted to submit
                     for Commission consideration. The Commissioners disagreed with the former
                     Chairman’s influence over SECY paper content and uniformly expressed a need
                     to receive the staff’s unaltered, expert recommendations to support their decision
                     making. Two prior NRC Chairmen reported they did not change staff views
                     expressed in SECY papers and if they had a different view than the staff, they
                     expressed it in the voting record. Additionally, President Carter, who submitted
                     the Reorganization Plan to Congress, said the Reorganization Plan does not
                     allow the Chairman to interfere with NRC staff proposals and that the Chairman
                     should present the staff’s recommendations as received and articulate his position
                     separately, differing or not, to the Commission.

                     OIG found that with allegation #4, the former Chairman initially instructed
                     the Secretary of the Commission not to follow the consensus approach of the
                     four Commissioners concerning moving forward to finalize the revised Internal
                     Commission Procedures. OIG notes that two former Chairmen advised if a majority
                     of Commissioners gave the Secretary direction on how to process a matter, this
                     would have constituted majority direction to proceed. OIG found conflicting
                     direction. The Reorganization Plan states that the Secretary reports to the
                     Commission; however, Management Directive 10.137 assigns the Chairman to serve
                     as the supervising official for the Secretary and the Secretary’s position description
                     states that the Secretary reports to the Chairman. The General Counsel noted
                     that the Chairman’s supervisory authority was not intended to encroach on the
                     Commission’s authorities or functions, but was intended to be included as part of
                     the Chairman’s executive and administrative responsibilities. OIG noted that while
                     the Chairman is authorized to provide administrative supervision and oversight
                     of the Secretary, the Secretary must also be responsive to Commission direction
                     concerning policy formulation, rulemaking, and adjudicatory functions, and
                     administrative matters that the Commission determines have a direct effect on the
                     Commission’s ability to perform those functions.

                     Regarding allegation #5, OIG identified more than 15 examples of interactions
                     between the former Chairman and NRC senior executives and Commissioners
                     where the former Chairman’s behavior was not supportive of an open and
                     collaborative work environment. Although no one interviewed said they would
                     hesitate to bring a safety matter to the Chairman’s attention, NRC senior
                     executives and Commissioners provided specific examples of what they perceived
                     as intimidating and bullying tactics by the former Chairman so that they would
                     be influenced to side with him despite their own judgments. The impact was that
                     some senior officials avoided interactions with the former Chairman and might limit
                     what they tell him, which is contradictory to both NRC’s values and an open and
                     collaborative work environment.


38   NRC Office of the Inspector General Semiannual Report to Congress
Regarding allegation #6, OIG found that the former Chairman’s December 2011
testimony before the House and Senate committees was inconsistent, in five areas,
with testimony provided to OIG by NRC senior officials during this investigation.

(Addresses Management and Performance Challenge # 7)



NRC’s Failure To Enforce CFRs
OIG Strategic Goal: Safety
OIG conducted an investigation into an allegation that Nuclear Fuel Services,
an NRC licensee located in Erwin, TN, that manufactures and processes nuclear
reactor fuel for commercial purposes and for the military, had no quality assurance
(QA) program, which allowed NFS to release quantities of uranium and other
radioactive materials into the environment for several decades. According to
the alleger, NFS is required to have a QA program as defined by 10 CFR Part
50, Appendix B, “Quality Assurance Criteria for Nuclear Power Plants and Fuel
Reprocessing Plants,” and meet the requirements of the American Society of
Mechanical Engineers (ASME) standard NQA-1, “Quality Assurance Requirements
for Nuclear Facility Applications.”

OIG determined that NFS has an active QA program and that 10 CFR Part 50,
Appendix B, requirements do not apply to NFS. 10 CFR Part 50, “Domestic
Licensing of Production and Utilization Facilities,” pertains to production and
utilization facilities, which are reactors and facilities for the processing of irradiated
nuclear fuel (i.e., reprocessing). Also, NFS is not required by NRC regulations
to meet the requirements of the ASME NQA-1, which are guidelines for the
establishment and execution of QA programs during siting, design, construction,
operation, and decommissioning of nuclear facilities. NFS is neither a reactor nor
a reprocessing facility, but a fuel fabrication facility governed by 10 CFR Part 70,
Domestic Licensing of Special Nuclear Material.

OIG also determined that NFS is permitted to release trace amounts of uranium,
plutonium, and thorium to the environment within regulatory limits. 10 CFR
Part 70.59 requires NFS to submits biannual “Effluent Monitoring Reporting
Requirements” reports to NRC showing the amount of radioactivity released
broken down by isotope.

(Addresses Management and Performance Challenge #1)




                                                                         April 1, 2012–September 30, 2012   39
                     Concerns Regarding Region IV Staff Handling of Issues
                     Pertaining to Vallecitos Nuclear Center
                     OIG Strategic Goal: Corporate Management
                     OIG conducted an investigation into an allegation that previously identified
                     concerns regarding misconduct and deficiencies at the Vallecitos Nuclear Center
                     (VNC) were not being properly addressed by the NRC Region IV office. A
                     previous OIG investigation addressed an NRC inspector who allegedly was
                     not being objective during an inspection at VNC, and deliberately intimidated
                     the alleger during an interview regarding the alleger’s complaint about VNC
                     management. The previous OIG investigation did not substantiate any misconduct
                     on the part of the NRC inspector. According to the alleger’s new concerns, the
                     NRC put more effort into discrediting the alleger rather than investigating the
                     alleger’s concerns.

                     As a result of the alleger’s continued concerns, the NRC Region IV staff agreed to
                     re-interview the alleger. Based on a re-interview of the alleger, NRC identified nine
                     separate issues that required further review by NRC.

                     OIG determined that NRC addressed the alleger’s concerns by conducting onsite
                     inspections or by utilizing an independent evaluation team composed of multiple
                     contract companies with a background in safety conscious work environments. The
                     onsite inspections resulted in the alleger’s concerns being either unsubstantiated or
                     substantiated but not a violation of NRC regulatory requirements.

                     (Addresses Management and Performance Challenge # 7)



                     Possible Cost Mischarging by NRC Contractor
                     OIG Strategic Goal: Security
                     OIG completed an investigation into an allegation that an IT contractor may have
                     inappropriately billed NRC’s Region II office for the same work for which the
                     contractor had previously billed NRC’s Region III office. In August 2011, the NRC
                     Region III Information Systems Security Officer (ISSO), received information from
                     the NRC Region II ISSO that draft certification network accreditation (CNA)
                     documents from the NRC contractor contained specific information relating
                     to work completed on behalf of Region III. The Region III ISSO reviewed the
                     documents and agreed that the Region II excerpt looked similar to an assessment
                     the Region III ISSO drafted in March 2009 and provided to the contractor in
                     connection with Region III’s CNA review.

                     OIG learned that the NRC IT contract began on July 28, 2006, and included option
                     years for a total of $41,279,266.80. The purpose of this time and materials, fixed
                     ceiling, task order contract was to obtain professional services to support the NRC


40   NRC Office of the Inspector General Semiannual Report to Congress
in its information systems security certification and accreditation process. Part of the
IT contractor’s deliverable standards included the development of a CNA process
and deliverables that comply with appropriate standards with a quality performance
metric target of greater than or equal to 95 percent

OIG’s review of Region II’s Task Order 75 of the NRC contract disclosed that
Region II spent $117,109.16 on its CNA. Review of Region III’s task order 76 from
the contract disclosed $75,617.51 was spent on its CNA. The hourly rates were the
same for each task order. Task Order 75 included two sub-categories not included
in Task Order 76: E-Authentication Risk Assessment and Security Categorization.
Additionally, the IT contractor expended 146 more hours on Task Order 75.

OIG found that the contractor apologized to the project officer for disseminating
the report to Region II and emphasized they were trying to help Region II with its
CNA. The contractor subsequently removed the Project Manager responsible for
quality assurance from that position due to the issues raised by NRC. The contractor
informed the NRC Region III ISSO that the CNA would be corrected and the
Region III information would be erased from the Region II assessment.

OIG determined that the NRC IT contractor had used the Region III CNA
documents as templates for the Region II assessment and left information in the
documents from the previous Region III assessment. OIG also found that Region III
and Region II invoices submitted by the NRC IT contractor were consistent with the
amount of work performed in support of each assessment.

(Addresses Management and Performance Challenge #5)



Potential Conflict of Interest Involving NRC Grant Fraud
OIG Strategic Goal: Corporate Management
OIG conducted an investigation into an allegation that an NRC employee was
working on a volunteer basis as a collaborator on an NRC grant provided to
a university to develop a comprehensive undergraduate and graduate course.
According to the allegation, the NRC employee was also the lead reviewer on the
panel that recommended that the university receive the grant award; however, the
original grant proposal did not mention that the employee would potentially provide
assistance to the grant on a volunteer basis. The allegation also conveyed that the
grantees were planning to publish a book related to the grant work, and raised a
concern that the NRC employee might receive money from the book publication.

OIG learned that the grant for $150,000 was awarded to the university in 2010. At
some point during the award of the grant, the NRC project manager recommended
that an NRC senior adviser assist in the development of the course. The grant did
not have a stipulation preventing the Principal Investigator (PI) from developing a
curriculum book. Previous grants prevented PI’s or universities from developing a
course book for their own monetary gain.

                                                                      April 1, 2012–September 30, 2012   41
                     The NRC employee in question was assigned as the senior adviser to assist with the
                     grant.

                     The NRC employee’s role was primarily to focus university personnel efforts
                     on what was considered important for the course from NRC’s perspective. The
                     university PI was not aware of direct involvement with the grant by the NRC
                     employee and was not aware of any request made by the NRC employee to be a
                     co-author of the textbook.

                     OIG learned there was concern about a university report that stated it was preparing
                     a textbook and expressed appreciation for the NRC employee’s assistance. NRC
                     became aware of the NRC employee’s name being included on the status report.
                     OIG learned that prior to 2010, NRC grant proposal solicitations stipulated that
                     universities could not develop and write textbooks from their research. However,
                     the stipulation relating to textbooks was not included in the 2010 grant proposal
                     solicitations due to an oversight and change in office supervision. OIG learned new
                     NRC solicitations for curriculum grants will explain that universities cannot develop
                     textbooks as a result of their research supporting NRC grants.

                     OIG learned the NRC employee was aware of the discussion of the development
                     of a textbook. The NRC employee informed the university PI that the employee
                     would provide assistance, but could not accept funds associated with the sale of the
                     textbook due to the employee’s position with the NRC.

                     OIG determined there was no conflict of interest in NRC providing volunteer
                     assistance to support the grant, and that the grant was being rewritten to correctly
                     reflect that NRC grant funds may not be used to publish a book.

                     (Addresses Management and Performance Challenge #7)



                     Possible Violation of Post-Employment Statute by Former
                     NRC Managers
                     OIG Strategic Goal: Corporate Management
                     OIG conducted an investigation into an allegation from an NRC licensee who
                     alleged that three former NRC employees violated 18 U.S.C §207, “Restrictions on
                     Former Officers, Employees, and Elected Officials of the Executive and Legislative
                     Branches,” by working on behalf of another NRC licensee to support an ongoing
                     antitrust and unfair competition lawsuit against the alleger. The suit involves a
                     nuclear device and the decision to withdraw approved usage by the NRC. NRC
                     approved the device for use in 2000; in 2007, the NRC withdrew its approval. The
                     alleger contends that the NRC has a direct and substantial interest in the litigation
                     between it and the second licensee and that the former NRC employees are in
                     violation of 18 U.S.C §207. The alleger reported that two of the three former



42   NRC Office of the Inspector General Semiannual Report to Congress
NRC employees were directly involved in the decision to withdraw approval of the
nuclear instrument while employed by the NRC and later assisted the licensee in
the preparation of a report that would ultimately be used in litigation of unfair trade
practices.

OIG was unable to substantiate that a violation of post-employment statutes
occurred. OIG learned that a company that employed the three former NRC
employees was hired by an NRC licensee and prepared an “expert report” that
expressed an opinion on the completeness and accuracy of information that had
been provided to the NRC by the alleger regarding the nuclear device. The alleger
is seeking money damages from the other licensee regarding the device. The NRC
is not a party in the lawsuit. The alleger reported that the company that employed
the three former NRC employees knowingly represented to the NRC false
information as to past employment restrictions of the three former employees. The
information was then used by the then-NRC Senior Ethics Counsel to determine
that there was no NRC interest in the outcome of litigation between the two NRC
licensees, therefore, resulting in a decision that no violations of post-employment
activities had occurred. The alleger believed that had the NRC Senior Ethics
Counsel been in possession of a letter from the company that employed the three
former NRC employees regarding an expert report on the device, the Senior Ethics
Counsel would have rendered a different opinion.

The alleger also believed that the company’s involvement in a current NRC Office
of Investigations investigation against the alleger shows that the U.S. Government
[NRC] has a direct and substantial interest, thereby, resulting in the former NRC
employees to have violated post-employment laws.

The Senior Ethics Counsel provided an opinion in 2011 that was used in Federal
Court, regarding post-employment activities of the three former NRC employees.
His opinion was that the Government was not a party and had no interest in the case
between the two licensees. He was not in possession of a letter from the company
at the time of his decision; however, after reading the letter, he determined that it
would not have changed his decision regarding post-employment activities. The
Federal Court confirmed that no violation of the post-employment statutes had
occurred. The court held that the matter under review was not the same matters as
the subject of the litigation. The court failed to see how the discovery of information
withheld from the NRC by the alleger would affect the past review of the device
by the NRC. Even if the NRC opened an investigation based on the allegations in
the company’s report, the court could not articulate how that would translate into a
violation of 18 U.S.C §207 on the part of the former NRC employees.

(Addresses Management and Performance Challenge # 7)




                                                                      April 1, 2012–September 30, 2012   43
Summary of OIG Accomplishments
April 1, 2012, through September 30, 2012



INVESTIGATIVE STATISTICS
Source of Allegations
                    NRC Employee                                                           36

                 NRC Management                       5

        Other Government Agency               2

                     General Public                                                             40

           OIG Investigation/Audit            2

                             Projects         2

                 Regulated Industry               3

                         Anonymous                                                              40

                          Contractor 0

                          Intervenor 0

                      Congressional               3

                                          Allegations resulting from Hotline Program: 68
                                                                              Total: 133



     Disposition of Allegations

                                 Total                                                               133

             Closed Administratively                               43

     Referred for OIG Investigation                                  46

Referred to NRC Management and Staff                       24

              Pending Review Action               6

         Correlated to Existing Case                  12

              Referred to OIG Audit       0

           Referred to Other Agency           2



44   NRC Office of the Inspector General Semiannual Report to Congress
Status of Investigations
DOJ Acceptance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
DOJ Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
DOJ Pending. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
DOJ Declinations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Sentencing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
NRC Administrative Actions:
       Terminations and Resignations. . . . . . . . . . . . . . . . . . . . . . . . . 1
       Suspensions and Demotions . . . . . . . . . . . . . . . . . . . . . . . . . . 0
       Counseling. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
       Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
       Other . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
State Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
State Pending. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
State Accepted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
PFCRA8 Referral . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
PFCRA Acceptance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
PFCRA Recovery . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
PFCRA Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Summary of Investigations
Classification of                                         Opened       Closed       Cases in
Investigations                              Carryover      Cases       Cases        Progress

Conflict of Interest                             1             0           1            0
Employee Misconduct                             20           17          13            24
Event Inquiry                                    1             1           0            2
External Fraud                                   6             2           2            6
False Statements                                 1             5           1            5
Management Misconduct                            7           13            8           12
Miscellaneous                                    4             3           2            5
Proactive Initiatives                           11             0           3            8
Technical Allegations                            0             8           2            6
Theft                                            1             0           0            1
     Grand Total                                52           49          32            69



8
    Program Fraud Civil Remedies Act.



                                                                               April 1, 2012–September 30, 2012   45
                  AUDIT LISTINGS
                  Date             Title                                                 Audit Number

                  04/16/12         Audit of NRC’s Protection of Safeguards Information   OIG-12-A-12

                  04/20/12         Audit of NRC’s Management of Import/Export            OIG-12-A-13
                                   Authorizations

                  06/28/12         Audit of NRC’s Issuance of General Licenses           OIG-12-A-14

                  06/28/12         Audit of NRC’s Oversight of Industrial Radiography    OIG-12-A-15

                  07/12/12         Audit of NRC’s Inspections, Tests, Analyses, and      OIG-12-A-16
                                   Acceptance Criteria (ITAAC) Process

                  08/27/12         Information Security Risk Evaluation of Region II –   OIG-12-A-17
                                    Atlanta, GA

                  09/17/12         Audit of NRC’s Contract Administration of the         OIG-12-A-18
                                   EPM Contract

                  09/25/12         Audit of NRC’s Use of Orders                          OIG-12-A-19

                  09/26/12         Audit of NRC’s Oversight of the Agency’s Federally    OIG-12-A-20
                                   Funded Research and Development Center

                  09/26/12         Audit of NRC’s 10 CFR Part 31 General Licensing       OIG-12-A-21
                                   Program

                  09/26/12         Information Security Risk Evaluation of Region III–   OIG-12-A-22
                                   Lisle, IL




46   NRC Office of the Inspector General Semiannual Report to Congress
Contract Audit Reports
OIG           Contractor/Title/                               Questioned      Unsupported
Issued Date   Contract Number                                 Costs           Costs

05/14/2012    Southwest Research, Inc                         $540,637        0
              Independent Audit of Southwest Research
              Institute’s Annual Incurred Costs, Contractor
              Fiscal Year 2008
              NRC-04-10-144
              NRC-41-08-004
              NRC-41-09-011
              NRC-03-10-081
              NRC-02-06-018
              NRC-02-06-021
              NRC-03-09-070
              NRC-03-10-070
              NRC-03-10-066
              NRC-HQ-11-C-03-0047
              NRC-HQ-11-C-03-0058

07/09/2012    Information Systems Laboratories, Inc           0               0
              Independent Audit of Information Systems
              Laboratories, Inc. Fiscal Year 2005 Incurred
              Cost Proposal
              NRC-04-97-039
              NRC-03-00-003
              NRC-02-00-003
              NRC-04-01-052
              NRC-04-01-067
              NRC 04-02-054
              NRC-03-03-038
              NRC-04-04-062
              NRC-04-04-054
              NRC-04-04-065
              NRC-04-05-064


09/24/2012    Reeves & Associates Consulting and             0                0
              Training, Inc
              Independent Audit on Reeves & Associates
              Consulting and Training, Inc. Pre-award Survey
              of Prospective Contractor Accounting System
              NRC-HQ-12-R-11-0116




                                                                  April 1, 2012–September 30, 2012   47
AUDIT RESOLUTION ACTIVITIES
Table I
OIG Reports Containing Questioned Costs9
                                                                                                      Questioned            Unsupported
                                                                           Number of                     Costs                  Costs
Reports                                                                     Reports                    (Dollars)              (Dollars)

A.        For which no management decision
          had been made by the commencement
          of the reporting period                                                 0                           0                  0

B.        Which were issued during the reporting
          period                                                                  1                      $540,637                0

          Subtotal (A + B)                                                        1                      $540,637                0

C.        For which a management decision was
          made during the reporting period:

          (i) dollar value of disallowed costs                                    0                           0                  0

          (ii) dollar value of costs not disallowed                               0                           0                  0

D.        For which no management decision had
          been made by the end of the reporting period                            1                      $540,637                0

E.        For which no management decision was
          made within 6 months of issuance                                        0                           0                  0




9
    Questioned costs are costs that are questioned by OIG because of an alleged violation of a provision of a law,
    regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
    funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a finding
    that the expenditure of funds for the intended purpose is unnecessary or unreasonable.


48       NRC Office of the Inspector General Semiannual Report to Congress
Table II
OIG Reports Issued with Recommendations
That Funds Be Put to Better Use10
                                                                                  Number of                 Dollar Value
Reports                                                                            Reports                   of Funds

A.         For which no management decision                                              0                          0
           had been made by the commencement
           of the reporting period

B.         Which were issued during the                                                  1                    $357,800
           reporting period

C.         For which a management decision was
           made during the reporting period:

           (i) dollar value of recommendations                                           1                    $357,800
               that were agreed to by management

           (ii) dollar value of recommendations                                          0                          0
                that were not agreed to by management

D.         For which no management decision had                                          0                          0
           been made by the end of the reporting
           period

E.         For which no management decision was                                          0                          0
           made within 6 months of issuance




10
     A “recommendation that funds be put to better use” is a recommendation by OIG that funds could be used more
     efficiently if NRC management took actions to implement and complete the recommendation, including: reductions
     in outlays; deobligation of funds from programs or operations; withdrawal of interest subsidy costs on loans or loan
     guarantees, insurance, or bonds; costs not incurred by implementing recommended improvements related to the
     operations of NRC, a contractor, or a grantee; avoidance of unnecessary expenditures noted in preaward reviews of
     contract or grant agreements; or any other savings which are specifically identified.


                                                                                                 April 1, 2012–September 30, 2012   49
            Table III
            Significant Recommendations Described in Previous
            Semiannual Reports on Which Corrective Action Has
            Not Been Completed
            Date          Report Title                                                         Number

            05/26/2003      Audit of NRC’s Regulatory Oversight of Special                     OIG-03-A-15
                            Nuclear Materials

                            Recommendation 1: Conduct periodic inspections to
                            verify that material licensees comply with material control
                            and accountability (MC&A) requirements, including, but
                            not limited to, visual inspections of licensees’ special nuclear
                            material (SNM) inventories and validation of
                            reported information.

            09/26/2008      Audit of NRC’s Enforcement Program                                 OIG-08-A-17

                            Recommendation 3: Develop and implement a quality
                            assurance process that ensures that collected enforcement data
                            is accurate and complete.




50   NRC Office of the Inspector General Semiannual Report to Congress
Abbreviations and Acronyms
AEA       Atomic Energy Act of 1954
ASME      American Society of Mechanical Engineers
CNA       certification network accreditation
CFR       Code of Federal Regulations
CIO       Chief Information Officer
CIPIMS    Construction Inspection Program Information Management System
COL       combined construction permit and operating license
DOI NBC   Department of the Interior, National Business Center
EDO       Executive Director for Operationsions (NRC)
EIS       environmental impact statement
EPM       Enterprise Project Management
E-Safe    Electronic Safe
FAR       Federal Acquisition Regulation
FFRDC     Federally Funded Research and Development Center
FY        Fiscal Year
GLD       general licensed device
GLTS      General License Tracking System
HOC       Headquarters Operations Center (NRC)
IAM       Issue Area Monitor
IDIQ      Indefinite Delivery, Indefinite Quantity
IG        Inspector General
ISSO      Information Systems Security Officer
IT        information technology
ITAAC     Inspections, Tests, Analyses, and Acceptance Criteria
MD        Management Directive
NEPA      National Environmental Policy Act of 1969
NRC       U.S. Nuclear Regulatory Commission
NRO       Office of New Reactors (NRC)
OBRA-90   Omnibus Budget Reconciliation Act of 1990
OIG       Office of the Inspector General (NRC)
OIP       Office of International Programs
OMB       Office of Management and Budget
PI        Principal Investigator
QA        quality assurance
RSO       Radiation Safety Officer
SGI       Safeguards Information
SGI LAN   Safeguards Information Local Area Network
SLES      Safeguards Local Area Network and Electronic Safe
SwRI      Southwest Research Institute
UPS       Uninterruptible Power Supplies
VNC       Vallecitos Nuclear Center

                                                       April 1, 2012–September 30, 2012   51
Reporting Requirements
The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports. This index cross-references those requirements to the applicable
pages where they are fulfilled in this report.


Citation           Reporting Requirements                                          Page

Section 4(a)(2)    Review of Legislation and Regulations                             6-7

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies          10-27, 35-43

Section 5(a)(2)    Recommendations for Corrective Action                          10-27

Section 5(a)(3)    Prior Significant Recommendations Not Yet Completed                50

Section 5(a)(4)    Matters Referred to Prosecutive Authorities                        45

Section 5(a)(5)    Information or Assistance Refused                              None

Section 5(a)(6)    Listing of Audit Reports                                           46

Section 5(a)(7)    Summary of Significant Reports                          10-27, 35-43

Section 5(a)(8)    Audit Reports — Questioned Costs                                   48

Section 5(a)(9)    Audit Reports — Funds Put to Better Use                            49

Section 5(a)(10)   Audit Reports Issued Before Commencement of the                None
                   Reporting Period for Which No Management Decision
                   Has Been Made

Section 5(a)(11)   Significant Revised Management Decisions                       None

Section 5(a)(12)   Significant Management Decisions With Which                    None
                   the OIG Disagreed

Public Law 111-203, the Dodd-Frank Wall Street Reform and Consumer Protection
Act, requires IGs to include their peer review results as an appendix to each Semiannual
Report to Congress.

Section 989C       Peer Review Information                                            53




52   NRC Office of the Inspector General Semiannual Report to Congress
Appendix
Peer Review Information
NRC OIG did not conduct any peer reviews of other OIGs during this reporting
period.



Audits
The NRC OIG Audit Program was peer reviewed most recently by the National
Archives and Records Administration Office of Inspector General. The peer review
final report, dated September 27, 2012, reflected that NRC OIG received a peer
review rating of pass. This is the highest rating possible based on the available
options of pass, pass with deficiencies, or fail.



Investigations
The NRC OIG Investigative Program was peer reviewed most recently by the
U.S. Department of State Office of Inspector General. The peer review final
report, dated July 6, 2010, reflected that NRC OIG is in compliance with the
quality standards established by the President’s Council on Integrity and Efficiency/
Executive Council on Integrity and Efficiency and the Attorney General guidelines.




                                                                     April 1, 2012–September 30, 2012   53
                                                                         Cherenkov effect in the Reed Research Reactor

54   NRC Office of the Inspector General Semiannual Report to Congress
Fort Calhoun nuclear power plant, located near Omaha, NE   Photo courtesy of Omaha Public Power



                                            April 1, 2012–September 30, 2012                 55
OIG VISION                                                                OIG STRATEGIC GOALS
“OIG will identify the most critical risks and vulnerabilities in         1. S
                                                                              trengthen NRC’s efforts to protect public health and safety
agency programs and operations in a timely manner to allow the               and the environment.
agency to take any necessary corrective action and to prevent
                                                                          2. E nhance NRC’s efforts to increase security in response to an
and detect fraud, waste, and abuse.”
                                                                             evolving threat environment.
                                                                          3. I ncrease the economy, efficiency, and effectiveness with
OIG MISSION                                                                  which NRC manages and exercises stewardship over its
                                                                             resources.
NRC OIG’s mission is to (1) independently and objectively conduct
and supervise audits and investigations relating to NRC’s programs
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Cover Photos:
Background: Leskel Gamma Knife® headframe uses radiation to treat
people with brain tumors.
1. Patient preparing for Gamma Knife® treatment.
2. NRC inspection and radiation monitoring.
3. Researcher handling radioactive material.
4. A moisture gauge uses radiation to indicate whether a foundation is
    suitable for construction.
The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be          Office of the Inspector General
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
                                                                                            Semiannual Report
                                                                                            to Congress
• Contract and Procurement Irregularities    • Abuse of Authority
• Conflict of Interest                       • Misuse of Government Credit Card
• Theft and Misuse of Property               • Time and Attendance Abuse
• Travel Fraud                               • Misuse of Information Technology Resources
• Misconduct                                 • Program Mismanagement


Ways to Contact the OIG
                               Call:
                               OIG Hotline
                               1-800-233-3497
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message.


                               Submit:
                               Online Form
                               www.nrc.gov
                               Click on Inspector General
                               Click on OIG Hotline



                               Write:
                               U.S. Nuclear Regulatory Commission
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike                                         April 1, 2012–September 30, 2012
                               Rockville, MD 20852-2738


NUREG-1415, Vol. 25, No. 2
October 2012
